<html>
<title> - [H.A.S.C. No. 114-43] NUCLEAR DETERRENCE IN THE 21ST CENTURY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                                     
 
                         [H.A.S.C. No. 114-43]

                 NUCLEAR DETERRENCE IN THE 21ST CENTURY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 25, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-318                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          




                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk

















                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Sherwood-Randall, Hon. Elizabeth, Deputy Secretary of Energy, 
  U.S. Department of Energy......................................     4
Winnefeld, ADM James A., Jr., USN, Vice Chairman of the Joint 
  Chiefs of Staff, U.S. Department of Defense....................     7
Work, Hon. Robert O., Deputy Secretary of Defense, U.S. 
  Department of Defense..........................................     2

                                APPENDIX

Prepared Statements:

    Sherwood-Randall, Hon. Elizabeth.............................    48
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    36
    Thornberry, Hon. William M. ``Mac''..........................    35
    Work, Hon. Robert O., joint with ADM James A. Winnefeld, Jr..    38

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................    63
    Mr. Langevin.................................................    63

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    71
    Mrs. Davis...................................................    67
    Mr. Langevin.................................................    69
    Mr. Rogers...................................................    73
    Mr. Shuster..................................................    82
    Mr. Smith....................................................    67
    Mr. Walz.....................................................    84
    Mr. Wilson...................................................    68




                 NUCLEAR DETERRENCE IN THE 21ST CENTURY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, June 25, 2015.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    The committee meets today to have a hearing on nuclear 
deterrence in the 21st century.
    I ask unanimous consent that my complete opening statement 
be made part of the record. I am afraid we are going to have 
votes here in a few minutes.
    Let me just say that in my view, our nuclear deterrent is 
the cornerstone of all our defense efforts as well as a source 
of stability around the world. And in my opinion, for too long, 
we have taken it for granted, neglecting the systems, the 
infrastructure, and the people involved in making all of those 
complex machines safe, reliable, and effective.
    Unfortunately, the investment that we have made in delivery 
systems and weapons in the past are all aging out about the 
same time, and that presents us with a substantial challenge, 
especially when we merge that with what other nations are 
doing.
    The committee has had a series of events over the course of 
the past week or so, classified and unclassified, looking at 
various aspects of this problem. I understand the Oversight and 
Investigations Subcommittee will have a further hearing on this 
matter this afternoon.
    So I think it is very appropriate that we have our 
witnesses with us today to examine some of these issues. I will 
look forward to introducing them in just a moment, but Mr. 
Smith has been detained for a brief period, and in his absence, 
I would yield to the distinguished gentleman from Rhode Island 
for any comments he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 35.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
           RHODE ISLAND, COMMITTEE ON ARMED SERVICES

    Mr. Langevin. Thank you, Mr. Chairman.
    I want to, on behalf of Ranking Member Smith and the 
committee, welcome our witnesses here today. Look forward to 
your testimony. Mr. Smith is at his physical therapy 
appointment and will be here shortly once that concludes, but 
he welcomes you.
    And in the interest of time, Mr. Chairman, given the fact 
that votes are going to be called, without objection, I will 
submit Mr. Smith's full statement for the record, and I will 
yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 36.]
    The Chairman. I thank the gentleman. Without objection, it 
is so ordered.
    Again, let me welcome our distinguished witnesses today. I 
think your presence is evidence of the seriousness with which 
the administration takes this issue.
    We are pleased to welcome the Deputy Secretary of Defense, 
Robert Work; the Deputy Secretary of Energy, Elizabeth 
Sherwood-Randall; and the Vice Chairman of the Joint Chiefs of 
Staff, Admiral James ``Sandy'' Winnefeld.
    And let me also say, Admiral, that the odds are this may be 
your last hearing in front of the House Armed Services 
Committee. And my memory is something like 37 years of service 
to our Nation, and may I say thank you for all of those years, 
not only in your current job, where we have been able to work 
with you on a number of issues, but an incredible history of 
service.
    And so thank you and congratulations.
    Secretary Work, you are recognized for any comments you 
would like to make. And without objection, all of your written 
statements will be made part of the record.
    Mr. Secretary, you may have to punch the button and get the 
microphone right in front of you. Thank you.

STATEMENT OF HON. ROBERT O. WORK, DEPUTY SECRETARY OF DEFENSE, 
                   U.S. DEPARTMENT OF DEFENSE

    Secretary Work. Thank you, sir.
    I want to thank you and the members of the committee for 
the support that you continue to show for our men and women in 
uniform, our Department of Defense [DOD] civilians, and their 
families. Secretary Carter and I and everyone in the Department 
greatly appreciate it. We simply couldn't maintain the finest 
fighting force in the world without your help and without 
everything that you have provided us.
    I am really delighted to be here this morning with Dr. Liz 
Sherwood-Randall from the Department of Energy and, as you 
said, the vice chairman, to talk about this very important 
subject, nuclear policy, forces, and modernization.
    I would just like to touch briefly on three points: the 
critical role that our nuclear forces continue to play in our 
national security; the continuing importance of nuclear 
deterrent forces given recent changes in the security 
environment; and the actions the Department is taking to make 
sure that we maintain a safe, reliable, and effective nuclear 
force.
    As the chairman and the vice chairman say constantly, the 
survival of our Nation is our most important national security 
interest. The fundamental role of the U.S. nuclear force is to 
deter an attack on the United States, which is the only 
existential threat to our Nation. Extended deterrence provides 
protection to our allies and partners, enhances alliance 
cohesion, and serves our nonproliferation goals.
    Now, while we seek a world without nuclear weapons, we face 
the hard reality that Russia and China are rapidly modernizing 
their already capable nuclear arsenals, and North Korea 
continues to develop nuclear weapons and the means to deliver 
them against the continental United States. So a strong nuclear 
deterrent force will remain critical to our national security 
for the foreseeable future.
    I would like to address Russia's provocations. As members 
of this committee well know, senior Russian officials continue 
to make irresponsible statements regarding Russia's nuclear 
forces and we assess that they are doing it to intimidate our 
allies and us.
    These have failed. If anything, they have really 
strengthened the NATO [North Atlantic Treaty Organization] 
alliance solidarity.
    Moscow continues to violate the INF [Intermediate-Range 
Nuclear Forces] Treaty, in our estimation, and our goal is to 
return them to compliance to preserve the viability of that 
treaty. Under any circumstances, however, we will not allow 
them to gain significant military advantage through INF 
violations. We are developing and analyzing response options 
for the President and we are consulting with our allies on the 
best way forward here.
    Now, let me just say this about Russian military doctrine 
that sometimes is described as ``escalate to deescalate.'' 
Anyone who thinks that they can control escalation through the 
use of nuclear weapons is literally playing with fire. 
Escalation is escalation, and nuclear use would be the ultimate 
escalation.
    As Secretary Carter recently said, ``Moscow's nuclear saber 
rattling raises questions about Russia's commitment to 
strategic stability and the profound caution and respect that 
world leaders in the nuclear age have shown towards the 
brandishing of these weapons.''
    China is also doing nuclear upgrades. They are placing 
multiple warheads on their ICBMs [intercontinental ballistic 
missiles]. They are expanding their mobile ICBM force. They 
continue to pursue a sea-based element for their nuclear 
forces. However, we assess that this modernization program is 
designed to ensure they have a second-strike capability, and 
not to seek a quantitative nuclear parity with the United 
States or Russia.
    North Korea, they continue to expand their nuclear weapons 
and missile programs. And in response, we continue to improve 
our national missile defenses and conventional counterforce 
options, and our current plans will keep us ahead of North 
Korean capabilities, in our estimation.
    So given the importance of nuclear weapons, as well as this 
volatile 21st century national security environment, the 
President has directed that we maintain a safe, secure, and 
reliable triad of strategic nuclear delivery systems, while 
adjusting the force levels to the New START [Strategic Arms 
Reduction] Treaty. This is the highest priority for the 
Department of Defense.
    We have developed a plan to transition our aging systems. 
As the chairman said, they all are becoming--reaching the time 
where they will age out. Carrying out this plan is going to be 
a very expensive proposition and we recognize that. It is 
projected to cost DOD an average of $18 billion a year from 
2021 through 2035 in fiscal year 2016 dollars.
    Without additional funding dedicated to strategic force 
modernization, sustaining this level of spending will require 
very, very hard choices and will impact the other parts of the 
defense portfolio, particularly our conventional mission 
capability.
    Now, this modernization we have delayed and we cannot do 
further any delays without putting the safety, security, and 
effectiveness of our forces at risk. So the choice that we are 
facing, quite frankly, Mr. Chairman and members, is that 
keeping the existing force or modernizing the force, the choice 
right now is modernizing or losing deterrent capability in the 
2020s and 2030s. That's the stark choice that we are faced 
with.
    We appreciate that this committee has recognized this 
problem, including legislation to establish a strategic 
deterrent fund. We now believe we have to decide how to 
resource the fund and the challenge we think we need to talk 
about on how we solve this, because it is a very pressing 
issue.
    So I look forward to discussing this issue with you and the 
other defense oversight committees, and I look forward to your 
questions.
    [The joint prepared statement of Secretary Work and Admiral 
Winnefeld can be found in the Appendix on page 38.]
    The Chairman. Thank you, sir.
    Secretary Sherwood-Randall, the floor is yours.

STATEMENT OF HON. ELIZABETH SHERWOOD-RANDALL, DEPUTY SECRETARY 
              OF ENERGY, U.S. DEPARTMENT OF ENERGY

    Secretary Sherwood-Randall. Thank you, Chairman Thornberry, 
Ranking Member Smith, and members of the committee--Mr. Rogers 
as well, who I had the privilege of traveling with to our Idaho 
National Lab. I appreciate this opportunity to discuss the 
Department of Energy's role in supporting U.S. nuclear 
deterrence in the 21st century.
    Secretary of Energy Moniz and I appreciate the priority 
that this committee places on nuclear matters, given their 
significance to our national security and the emphasis that 
President Obama has placed on ensuring the safety, security, 
and effectiveness of our nuclear weapons as we seek to reduce 
global nuclear dangers.
    Today's hearing is an important step in our ongoing effort 
to build a strong national consensus on the role for and 
management of the United States nuclear deterrent. I am honored 
to testify alongside my two close colleagues from the 
Department of Defense. The Departments of Energy and Defense 
share a solemn responsibility for delivering the nuclear 
deterrent, and we work on this in tandem, with DOE providing 
the weapons and DOD providing the delivery systems.
    Our two agencies collaborate through the Nuclear Weapons 
Council to improve communication and to increase coordination 
throughout the budget cycle. Our cooperation is strong and 
deliberate, as you will hear today.
    This cooperation depends upon the leadership of experienced 
members of our military, like Admiral Sandy Winnefeld who, as 
the chairman noted, will be retiring after 4 years as Vice 
Chairman of the Joint Chiefs at the end of July.
    It has been a privilege to work closely with Admiral 
Winnefeld throughout the administration, and we have joined 
forces frequently on issues of direct relevance to this 
hearing.
    I would like to take this opportunity to publicly thank 
Sandy for his many years of extraordinary and dedicated service 
to our Nation.
    We are all aware that the United States and our allies and 
partners face grave and growing nuclear dangers. As President 
Obama said in his April 2009 Prague speech, the threat of 
nuclear war has gone down, but the risk of nuclear attack has 
gone up.
    With these dangers in mind, the Obama administration has 
set forth a clear two-pronged nuclear strategy. First, we must 
reduce the threat of nuclear proliferation, and second, we must 
maintain a safe, secure, and effective nuclear deterrent.
    At DOE, we are charged with playing a significant role in 
implementing both elements of the President's nuclear strategy. 
This is a no-fail mission in which we must provide a safe, 
secure, and effective nuclear deterrent without explosive 
nuclear testing while also preventing, countering, and 
responding to proliferation and nuclear terrorism around the 
world.
    Indeed, as the United States reduces its nuclear arsenal, 
DOE's responsibility for maintaining the arsenal's safety, 
security, and effectiveness becomes all the more important.
    Infrastructure modernization and the ongoing Stockpile 
Stewardship and Management Program, undergirded by sound 
science and advanced technology, are necessary to ensure the 
ability of the United States to meet 21st century threats.
    The Stockpile Stewardship Program is one of DOE's most 
remarkable achievements of the past two decades.
    Every year, DOE has enabled the Secretaries of Defense and 
Energy, together with the directors of Livermore, Los Alamos, 
and Sandia National Laboratories, the Nuclear Weapons Council, 
and the commander of the U.S. Strategic Command, to certify to 
the President that our nuclear stockpile is safe, secure, and 
reliable.
    And for the past 20 years, DOE's scientific and 
technological expertise has achieved this without explosive 
nuclear testing. In fact, our labs now know more about the 
physics of the inner workings of the stockpile than they ever 
did during the days of explosive nuclear testing.
    Our life extension programs and alterations refurbish, 
reuse, and replace nuclear components to extend the lifespan of 
our existing nuclear arsenal and to ensure their continued 
safety and effectiveness.
    To maintain confidence in our nuclear arsenal, we must 
continue to invest in the uniquely skilled nuclear security 
workforce, as well as the science and infrastructure essential 
to stockpile stewardship.
    DOE's National Nuclear Security Administration [NNSA] is 
responsible for the Nuclear Security Enterprise infrastructure 
necessary to sustain the stockpile and execute all of our 
nuclear missions.
    Some of the physical infrastructure dates back to the days 
of the Manhattan Project. As many of you have seen with your 
own eyes, much of it degrading, has exceeded its useful life 
and is in need of substantial maintenance or replacement.
    Equally important, more than 50 percent of the NNSA Federal 
workforce will be eligible to retire in the next 5 to 7 years. 
This wave of retirements requires us to recapitalize our 
workforce with a successor generation of outstanding talent 
that is able to carry forward our nuclear mission in this 
century.
    Building a responsive infrastructure requires investing in 
our people as well as in our new facilities, especially for 
plutonium and uranium, as well as high explosives, nonnuclear 
component production, and requisite laboratory and office 
workspace.
    Secretary Moniz and I have made reducing the maintenance 
backlog a key element of the Department's overall 
infrastructure strategy, and we seek your support for this as 
well as for the new construction that we need.
    Your recognition of our critical mission and your support 
for the life extension programs and a modernized infrastructure 
are critical to American national security and to the security 
of our allies and partners around the world.
    More broadly, the Secretary and I see the implementation of 
recommendations of the Congressional Advisory Panel on NNSA 
Governance, also known as the Mies-Augustine report, as a top 
priority and one that will enhance our efforts across the 
Nuclear Security Enterprise.
    Under Secretary Moniz' leadership, DOE and NNSA have 
already taken several significant steps to improve the 
operation and management of the Nuclear Security Enterprise.
    One of the report's significant findings was the need to 
rebuild national leadership focus on nuclear security with a 
particular emphasis on strengthening regular communications 
with relevant congressional leaders on policy elements that 
make up the nuclear security mission.
    I, along with the NNSA administrator, will lead the 
implementation group, and I look forward to working with you on 
this important issue. Your support for our governance agenda 
will be absolutely critical to our success.
    As I have already observed, DOE also plays a central role 
within the U.S. Government in implementing nuclear threat 
reduction activities. Our portfolio of work, aimed at 
preventing, countering, and responding to global nuclear 
threats, is rooted in our capabilities to develop and sustain 
the U.S. nuclear stockpile and enables us to implement this 
important dimension of the Prague Agenda.
    These activities are defense by other means. When we take 
fissile material off the global playing field or work 
discreetly to help countries to do a better job of protecting 
the fissile material that they retain, we defend ourselves and 
those who share our values from those who would do us harm.
    For example, NNSA's Office of Defense Nuclear 
Nonproliferation has safely and securely removed or confirmed 
the disposition of over 5,359 kilograms of highly enriched 
uranium and plutonium around the world, which is enough 
material for more than 200 nuclear weapons.
    In conclusion, as Deputy Secretary Work has already noted, 
our Nation faces numerous strategic challenges, including the 
continuous expansion of the Russian and Chinese nuclear 
programs.
    In the wake of several difficult years of constrained 
budgets and fiscal uncertainty, we cannot afford to delay the 
investments we need to make in our Nuclear Security Enterprise. 
With your support, we can sustain nuclear deterrence in the 
21st century.
    I thank you for the opportunity to testify today on this 
vitally important national security issue, and I look forward 
to your questions.
    [The prepared statement of Secretary Sherwood-Randall can 
be found in the Appendix on page 48.]
    The Chairman. Thank you.
    Admiral.

STATEMENT OF ADM JAMES A. WINNEFELD, JR., USN, VICE CHAIRMAN OF 
     THE JOINT CHIEFS OF STAFF, U.S. DEPARTMENT OF DEFENSE

    Admiral Winnefeld. Chairman Thornberry and distinguished 
members of the committee--I just missed Ranking Member Smith, 
but thank you, Mr. Langevin--thank you for the opportunity to 
share my perspective on nuclear deterrence. And sir, thank you 
for your kind words earlier; very much appreciate it.
    Chairman Dempsey and I view national security decision 
making, whether it is the use of force, resource allocation or 
assignment of risk, through the lens of a set of prioritized 
national security interests.
    It goes without saying, as Deputy Secretary Work alluded, 
that the survival of our Nation ranks first among those 
interests, followed closely by the need to prevent catastrophic 
attacks on our Nation.
    Additionally, our extended deterrence commitments help 
cover our interest in assuring our nonnuclear allies that their 
security interests will be protected without developing their 
own nuclear capabilities.
    It follows that tending to the health of our nuclear 
deterrent force is the most important thing that we do, 
representing, as it does, our only way to deter an existential 
attack from a major nation-state and one of several ways of 
deterring a smaller attack from a lesser state and also to 
assure our allies.
    We principally accomplish this through our long-proven 
triad and a combination of forward-deployed weapons and 
delivery platforms in Europe and the ability to rapidly do the 
same in the Pacific.
    However, while our deterrent is healthy today, three 
factors are contributing to our concern for its future health.
    First, at the end of the Cold War, many felt that the 
international system had evolved to the point where a nuclear 
deterrent was obsolete. However, recent events remind us of the 
necessity of maintaining a reliable and capable deterrent, 
including a triad, for as long as nuclear weapons exist.
    We still believe that any reductions in weapons must be 
done in concert with our potential antagonists, because 
unilateral gestures of good will have little standing with 
authoritarian regimes.
    Second, all three legs of our deterrent, their supporting 
command-and-control structure and many of the weapons they 
employ are coming due for recapitalization within a natural 
cycle.
    The fact is that systems age and need to be refreshed, 
modernized, or replaced. Russia is going through this exact 
same experience right now. But the unfortunate, coincident 
timing for us, also alluded to by Deputy Secretary Work, in the 
coming years presents a large bill over a relatively short 
period of time.
    And third, this is all happening at a time when our 
resources are actually decreasing.
    As it stands, any remaining margin we have for investing in 
our nuclear deterrent has been steadily whittled away as we 
have pushed investments further and further into the future.
    The fact is there is no slack left in the system. We will 
need stable, long-term funding to recapitalize this most 
important element of what we do. We can no longer adjust 
priorities inside the nuclear portfolio to make things work, to 
string it along.
    That implies that absent some other form of relief, because 
this is our highest security interest, we are going to have to 
reach into the other things we do to protect other national 
security interests. That is going to make many people, both 
inside and outside DOD, unhappy.
    For our part, we have been and will continue to exercise 
the best possible stewardship we can over our resources, and we 
will continue working closely with our DOE partners to ensure 
the viability and affordability of warhead life extension 
programs and stockpile stewardship. I hope Congress will do its 
part to help us.
    Before I conclude, I would like to thank the members of 
this committee for your strong support for our Nation's men and 
women in uniform during my tenure as vice chairman. And thank 
you again for the opportunity to appear alongside my colleagues 
today, and I do look forward to your questions.
    Thank you, sir.
    [The joint prepared statement of Admiral Winnefeld and 
Secretary Work can be found in the Appendix on page 38.]
    The Chairman. Thank you, sir.
    As feared, we have votes on the floor, and so we are going 
to have to recess, and then we will return as soon as those 
votes are concluded.
    And so if the witnesses want to make their way to the 
anteroom, we will buy you a cup of coffee. I am not promising 
how good it is.
    But with that, the committee will stand in recess. I would 
encourage members to come back right after votes.
    [Recess.]
    The Chairman. The committee will come to order again. Thank 
you all for your patience.
    Let me ask a couple of things as other members are making 
their way back from the floor.
    Secretary Work, last November, then-Secretary Hagel issued 
a message to the force on nuclear deterrence. And let me read a 
quote from that message. It said, ``Our nuclear deterrent plays 
a critical role in assuring U.S. national security and it is 
DOD's highest priority mission. No other capability we have is 
more important.''
    Is that still the case? Do you agree with that or not?
    Secretary Work. Yes, Mr. Chairman, I absolutely do, as does 
Secretary Carter. You know, one of the issues that we found in 
the Nuclear Enterprise Review is that once the Strategic Air 
Command was disestablished in 1991, over a long period of time 
between there and about 2008, we stopped thinking of the 
nuclear deterrence mission as a mission, and more of a 
function. And that resulted in some very, very bad outcomes, 
which we have been working to try to overcome since 2008.
    That is why Secretary Hagel said ``mission.'' It is a 
mission. We are looking for people who are responsible for 
every aspect of the mission. And efficiencies are great for 
savings when you are looking for functions, but this is really 
about command responsibility and making sure.
    So I believe that that is absolutely the case, and I 
believe the vice chairman and the chairman would agree with it, 
too.
    The Chairman. Well, let me ask you and Admiral Winnefeld 
this question. Because part of the reaction one gets is, okay, 
we have been dealing with this for 70 years; it has gone along 
pretty well; nothing has really changed; you know, we haven't 
had nuclear testing since 1991 or whatever the date is.
    So, there is really no need to spend all this money because 
we have been making it okay; and besides, we have got enough 
weapons to destroy the world several times over. So, really, 
you are just asking us to waste money to put it into the 
warheads or delivery systems.
    Now, what would y'all's reaction be to that sort of 
sentiment?
    Secretary Work. As both the vice chairman and I have 
testified, and I think all of the senior leadership of the 
Department has said, the only existential threat to our Nation 
is a nuclear attack. And the only thing that is more 
important--I mean, the one step down is preventing a 
catastrophic attack, which we believe would be one or two 
nuclear weapons being fired at the continental United States or 
blowing up in the continental United States.
    So, anybody who looks at the way that the international 
environment is moving, especially the way that Russia has been 
describing its nuclear deterrent posture, has to say: Nuclear 
weapons remain the most important mission we have; this is 
absolutely critical. We can perform deterrence with a much 
smaller force than we did in the Cold War. That is true. And 
that is reflected in the cost of the replacement.
    It will--the peak of the replacement will be nowhere near 
the peak of the replacement costs that occurred in the 1960s 
and the 1980s. So it is a smaller force. It performs an 
extremely important mission, no more important mission. And I 
would just say, just look at the international environment. 
This is not a time for us to say that nuclear weapons are 
useless.
    The Chairman. Admiral.
    Admiral Winnefeld. Sir, I would add to that very good 
description of why the deterrent is more relevant--remains 
relevant, to the fact that it is a capital asset. It is a whole 
host of capital assets. And like any capital asset, it needs to 
be maintained. It needs to be refurbished, refreshed, 
modernized. And as we've mentioned earlier, it is all coming 
due at the same time.
    Just as an example, I would point out that the air-launch 
cruise missile was designed to last 10 years. It has lasted two 
decades beyond that 10-year initial life. And we need to 
recapitalize that asset, and that is just one small slice of 
the need to do that.
    The Chairman. Finally, you all have all mentioned the cost 
of all of these systems aging out at the same time. I think 
yesterday or the day before yesterday, the Center for Strategic 
and Budgetary Assessment, CSBA, released at least a preliminary 
study entitled, ``Are U.S. Nuclear Forces Unaffordable?'' And 
their analysis, looking at various budget requests from now 
until fiscal year 2039, was that at no point would the nuclear 
force's share of national defense be more than 5 percent of the 
defense budget.
    Does that sound about right, based on the projections that 
you all have looked at?
    Secretary Work. We believe that they did a credible study. 
The big difference between their estimates and ours is they 
only included the long-range bomber--just a small portion of 
the entire program for the nuclear mission. We would say that 
it would take 7 percent of our budget. Right now, we are 
spending about 3 percent. So about doubling the level of effort 
that we are doing now to sustain the force, it would require 
about 7 percent.
    They were also correct on the time where we would peak out, 
generally around 2026 and 2027. And I would just say, Mr. 
Chairman, that if you look at the last two times, whereas the 
vice chairman said we recapitalized this force, recapitalized 
it, the peak is going to be much lower and will be spread out 
over a longer period of time. So it will average about $18 
billion a year.
    The important thing that they said in the study, sir, is it 
is a matter of prioritization and in both of the previous times 
we have added money on top of the conventional force mission--
so on a flat budget, taking that type of hit would have a 
major, major impact on the defense portfolio.
    Admiral Winnefeld. I would just add I think we differ on 
the numbers a little bit from that report. It is about 3 to 4 
percent to maintain what we have and around 7 percent to 
maintain what we have and modernize what we have, and I think 
that it is important to get that number out.
    The Chairman. Yes. And I appreciate the difference is how 
you assign the long-range bomber.
    But regardless, whether it is 5 or 7 percent for the 
highest priority for our national security, it seems to me like 
it is not completely unreasonable to say that that is in the 
ballpark.
    Admiral Winnefeld. Sir, if I could just add, you know, we 
have already lost about 10 percent over the last few years with 
BCA [Budget Control Act]. Stack that on top of it.
    And the one thing I do agree with the CSBA study is that if 
we don't find some other outside relief on this, then we will 
have to take it out of somewhere else in the defense budget, as 
the deputy said, as you said, and there are going to be a lot 
of people who aren't happy about that, because other missions 
that are important to this country are going to get pushed 
aside.
    The Chairman. Fair point.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And I would like to add my welcome to the witnesses. It is 
great to have such a distinguished panel before us, and it is 
great to hear this ringing affirmation for the importance of 
America's nuclear deterrence, because it is our most important 
mission but sometimes a forgotten one, and I appreciate your 
stressing it to this committee and to the public at large.
    One of the latest estimates we got was it will take at 
least $355 billion just to maintain our nuclear stockpile and 
all the things that go along with it for the next 10 years.
    And we in Congress have gotten in the bad habit of not 
paying for things. We really haven't fully funded our military 
in 15 years. We haven't had a fully funded highway bill in 8 
years. So I am hopeful that my colleagues will hear this 
message of the importance of this deterrent and not only 
support it but start funding it and start funding it now on a 
regular schedule.
    I congratulate the Obama administration because they have 
taken this very seriously and have funded these priorities. I 
just hope that as we go through the conference, which I am 
proud that our chairman is chairing, on the NDAA [National 
Defense Authorization Act], we will be able to figure out 
better solutions for fully funding and not pretending that we 
are funding things by relying on the so-called OCO, or Overseas 
Contingency Operation, account.
    But as we deal with these important issues, there are tons 
of questions to ask. And it is a pleasure to work with Chairman 
Mike Rogers on the subcommittee, where we can focus in more 
detail on these issues.
    But whether it is the newest, freshest missileer out in one 
of the missile fields or a young sailor on one of the nuclear 
subs or somebody who is preparing to fly a strategic bomber 
that--in some cases, where the B-52s are older than any of us 
on the panel. That is--we have got a lot of work to do.
    But I think the hardest thing is to get the public to 
understand why we need to spend so much money and be so careful 
with these incredible weapons that we hope we will never use. 
That is kind of a paradox, or at least an anomaly that some 
people don't quite want to wrap their heads around.
    But I am appreciative of y'all's devoting your careers to 
making this nuclear deterrence real, and I hope that we will 
figure out ways to counter Vladimir Putin's doctrine of, you 
know, nuclear escalatory dominance. And that is something that 
I see as one of the main threats, and I would welcome any of 
the panelists comments on that, the best way to counter a new 
and different sort of threat than perhaps we have seen before.
    Secretary Work. Well, sir, it is interesting. We have been 
trying to deemphasize the role of nuclear weapons in our 
national strategy, whereas Russia has been trying to emphasize 
it. It is primarily because they believe that they are at a 
conventional disadvantage against us, so they emphasize that 
for deterrence.
    And what we have said is using that type of escalatory 
language is extremely troubling because of the dangerous 
implications that it has that you might use a nuclear weapon to 
deescalate a crisis. Once you escalate, you escalate, and there 
is no way for us to be able to foresee what would happen after 
that.
    So we are asking the Russians to moderate their language 
and to continue to talk with us on the New START, make sure 
that they are in compliance on New START and potentially even 
reduce the number of weapons below that.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you for this hearing, and 
to each of our witnesses, thank you for your commitment to our 
country.
    Secretary Work, we are very fortunate to have you with your 
analytical skills and your vision for national defense, and we 
appreciate what you do.
    And Admiral, you have brought just a wealth of experience 
and wisdom to this position, and we thank you for that. And 
before you leave, I just want to pick just a little bit of that 
from you.
    And, you know, part of our nuclear program is not only what 
we do but what we keep others from taking from us, perhaps, or 
stealing from us. And we all know that China is committed to, 
more or less, stealing our lunch every day through both 
traditional and cyber espionage. The hack of OPM [Office of 
Personnel Management] is just the latest example.
    Do the Chinese steal our naval technology and apply it to 
their navy? And as a corollary to that, are you aware of any 
evidence concerning China stealing U.S. civil nuclear 
technology and diverting it to its nuclear navy?
    Admiral Winnefeld. Sir, I am not personally aware of any 
incidences of another nation stealing our nuclear technology 
and applying it to their navy, including China.
    That may be happening. I am just not briefed on any 
intelligence that would implicate that.
    I think it is well understood that there is cyber espionage 
that occurs. We have concerns from time to time about our 
cleared defense contractors, for example, and their 
cybersecurity. And we--I know that Frank Kendall and AT&L 
[Acquisition, Technology and Logistics] is working hard to 
tighten that up as best we can.
    I was reflecting on this earlier. You know, we talk about 
nuclear matters. As a sort of graduate of the Navy Nuclear 
Propulsion Program, one of the things that has intrigued me 
over the years is the element of human performance that that 
program inculcates into its people is very applicable to 
protecting ourselves in the cyber world, and we are 
investigating how we can go about inculcating some of those 
principles into our workforce so that we can stop any--or at 
least minimize the amount of cyber espionage that we 
experience.
    Mr. Forbes. And for any of our witnesses, do you have any 
suggestions of steps we should take to ensure that China can't 
take our technology and upgrade their ballistic missile 
submarines for their navy nuclear reactor technology?
    Secretary Work. I think you are referring to the China 123 
provision, sir. We are very concerned and we want to make sure 
that any agreement that we have in this regard is not used to 
allow them to have a quieter plant, for example. But as of this 
point, I know of no Chinese espionage that is looking, you 
know, is trying to specifically on this aspect of it, but I 
defer to the Secretary on the China 123 if there is anything on 
there.
    Secretary Sherwood-Randall. Thank you, Mr. Forbes.
    Our judgment is that the agreement protects our interest. 
And it also provides opportunity for our industry to have 
markets that are very significant for the United States and 
that allow us to advance the kinds of safety and performance 
standards that we want to see other countries adopt in their 
civil nuclear programs. Thank you.
    Mr. Forbes. Thank you all for your service and for being 
here.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony today.
    Admiral Winnefeld, as the chairman noted, this may be your 
last appearance before the committee. And I just want to thank 
you for your service to our Nation. You have made great 
contributions to our men and women in uniform and to our 
national security, and our Nation is greatly in your debt.
    Madam Secretary, if I could start a question with you. In 
the category of good-better-best, given the fact that our 
adversaries are clearly modernizing their nuclear programs, how 
do you assess our program? Is the refurbishment program 
adequate enough? Is it best? Or would we be serving our Nation 
better by designing a new nuclear warhead with all the modern 
safety features and surety features that we could build in, 
given how far technology has advanced? Or are we--is ``best'' 
doing what we are doing and just refurbishing?
    Secretary Sherwood-Randall. Thank you, Mr. Langevin.
    We, together with the Department of Defense, through the 
Nuclear Weapons Council, set the requirements for modernization 
of our stockpile. And it is our judgment that what we have 
committed to doing in the ``3+2'' strategy for modernization 
ensures that we will retain the deterrent capability that we 
need to defend the United States and our allies and partners 
around the world.
    We are confident of this work. We believe that the 
requirements that are presented in the 3+2 strategy will enable 
us to deter any adversary. It also enables us to reduce the 
stockpile in a way that makes it safer and more secure. And 
therefore, we judge that this is the right strategy going 
forward and are working very hard to implement it.
    Mr. Langevin. Thank you.
    I would also like to ask about nonproliferation programs. 
Can you describe the importance of radiation portal monitors as 
a component of a larger suite of technologies designed to 
prevent additional states and actors from acquiring nuclear 
materials?
    Secretary Sherwood-Randall. Thank you for giving me the 
opportunity to answer that question.
    These radiation portal monitors are part of what we have 
previously called a second line of defense program. And that is 
a critical part of our efforts to ensure that the movement of 
fissile material across borders does not go undetected. Because 
as we know, the most important part of a country or a group's 
ability to build a nuclear weapon is getting access to that 
fissile material.
    And so what we want to do is ensure that everywhere 
possible we have detection capabilities in vulnerable places to 
allow us to know in real time when something may be moving, so 
that it can be interdicted, and so that it can be secured 
against acquisition by those who would do us harm.
    Mr. Langevin. Secretary Work, perhaps for you, or to Madam 
Secretary, whichever would be appropriate: How would you 
characterize the cybersecurity measures in place to protect our 
nuclear enterprise? And how resilient are our systems?
    Secretary Work. The threat of cyberattack on all of our 
systems we take very, very seriously, sir. And obviously on 
nuclear issues, we take that the most seriously because they 
are some of the most important--as we have said, it is the most 
important mission we have.
    We are doing a wide variety of reviews on all of our 
systems, all of our platforms. We are concerned about our cyber 
vulnerabilities everywhere, and we continue to really look at 
it closely. Right now, I would judge it to be satisfactory.
    Mr. Langevin. I think we need to obviously continue to pay 
attention to that, and something I am very concerned about in 
particular. So thank you, Secretary.
    Admiral Winnefeld, does the New START treaty remain in the 
U.S. national interest? And then I have some other follow-up 
questions if the time allows.
    Admiral Winnefeld. Yes, sir. We believe the New START 
treaty does remain inside our national interest. We monitor 
continuously other nations and their behavior. We believe that 
Russia is adhering to the New START treaty as far as we can 
tell.
    The principal value to me of that treaty is our ability to 
verify what it is they are doing. And we would love to have 
complete transparency, but we believe the verification measures 
we have got on that treaty are adequate for us to have a better 
understanding of what they are doing. So yes, sir, we do 
believe that the New START treaty is still in our interest.
    Mr. Langevin. Thank you.
    To all witnesses, on the issue of verification, how 
important are verification detection to detect cheating? A 2014 
Defense Science Board concluded that much work remains to be 
done on verification and detection technologies and interagency 
cooperation. Do you agree? And what gaps remain?
    And that one you may have to do for the record.
    [The information referred to can be found in the Appendix 
on page 63.]
    The Chairman. If you all don't mind supplying that answer 
for the record, we will try to keep moving with our limited 
time and some more votes coming up, but I appreciate the 
gentleman.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    As we look back over the recent events that have been 
happening with Russia, there is no good news. Things keep 
getting worse. We have dangerous and aggressive nuclear threats 
and exercises directed against the United States, NATO allies, 
and its neighbors. We have Putin himself conducting nuclear 
weapons exercises. Imagine if our President conducted a nuclear 
weapons exercise, what international criticism there would be.
    But yet they defy that criticism and go to the next step of 
even adopting and openly discuss doctrine that Russia intends 
to use nuclear weapons early in a conflict to, what they call, 
``deescalate'' and get the United States to back down, which is 
just inconceivable in my mind that someone would think the use 
of nuclear weapons as a deescalation, because our doctrine, of 
course, is that it is an escalation.
    Russia continues to brazenly violate the INF Treaty as well 
as numerous other arms control obligations, without a response 
from the U.S. on the INF Treaty, not to mention the invasion 
and occupation and annexation of Crimea and the steadily more 
overt actions that they are taking for hybrid warfare in 
eastern Ukraine.
    So Admiral Winnefeld, what message would you want to send 
to the American public and to our allies, and in contrast 
directly to Putin, about the dangerous path that Russia is 
taking?
    Admiral Winnefeld. Thank you for the question. I think you 
have made a fairly good message yourself in your question.
    I would say it is very important that the Russians 
understand that far from being deescalatory, first use of 
nuclear weapons in a conflict like that, it risks uncontrolled 
escalation.
    The Russians are good mathematicians. They should consult 
chaos theory and things like that, that it is almost impossible 
to completely predict what the outcome would be of such a use 
of nuclear weapons, however small.
    So they need to understand that we are not falling for this 
trap, we are determined to protect and defend our allies within 
the commitments we have made to the NATO alliance and we will 
do that. And bluster and threats of nuclear weapons, as Deputy 
Secretary Work said in his opening statement, are destined to 
fail. We will not let that deter us from defending our allies.
    Mr. Turner. Thank you, Admiral. I appreciate the strong 
words.
    When you look Russia's actions--hybrid warfare, aggressive 
behavior, invading Ukraine, occupying Crimea, threatening NATO 
and non-NATO nations with nuclear retaliation and military 
action if they participate in either NATO or in missile defense 
deployment, and then with the buzzing of ships and aircrafts 
and the approaching in very aggressive manner, both our allies 
and our NATO allies--what do you believe the risks are of a 
conflict in Europe with Russia and with Russia's announced 
doctrine of seeing nuclear weapons as deescalatory and their 
practicing the use of those weapons? What do you see of the 
risk of such a conflict escalating to a nuclear exchange?
    Admiral Winnefeld. Sir, I would obviously want to defer to 
an intelligence person to really crisply assess the risk of 
something like that happening.
    So in my non-intelligence role, the risk is certainly not 
smaller than it used to be based on all the rhetoric and all 
the actions that President Putin and Russia have taken.
    But I do think they understand that we have a red line 
there, I do think they understand that we have got considerable 
capability to frustrate any moves that he might make in Europe, 
and at the end of the day, I believe that they will take that 
very seriously.
    We can't let down our guard in that regard in any way, 
shape, or form, and we are not.
    That is why we are investing more in the European 
Reassurance Initiative. Our very capable commander of European 
Command, who also happens to be SACEUR [Supreme Allied 
Commander Europe], is very active in reassuring our allies and 
taking the right steps, we believe, to make sure that 
reassurance is backed with actual capability.
    Mr. Turner. Right. I appreciate the strong words, because I 
think that in the rhetoric from Russia, it is hybrid warfare 
that it has undertaken, it is aggressiveness, it is threats to 
its neighbors, it is deployment of new and threatening systems 
and in the exercises that it is undertaking, they need to hear 
those words from the United States that our military is strong 
and that we view our obligations to our allies as absolute.
    Thank you, Admiral.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses for your testimony today.
    Mr. Work, I wanted to just sort of focus on your comments 
on the Ohio Replacement Program, which--again, you say all the 
right things about the fact that there is going to be this 
short--relatively short period of cost that is going to capsize 
the normal levels of the shipbuilding account.
    You know, as somebody who has been on Seapower for the last 
8 years, frankly, we have heard that testimony over and over 
again.
    And there are many times I sympathize with the 
administration coming up here and talking about sequestration, 
because, you know, that is our job to fix that.
    But in this case, you know, I would like to just sort of 
observe that, you know, what we have done on this side in terms 
of Ohio is actually set up a mechanism to try and provide a 
positive solution to the problem.
    And so we set up the account last year. This year, we are 
actually talking about activating the account and also 
empowering the Navy through incremental, you know, purchasing 
authority, multiyear purchasing authority, to really give them 
the tools to deal with this, you know, very challenging cost 
issue, which everybody, again, says the right things, that it 
is, you know, the highest priority for our Nation.
    And again, if we don't do it, we are going to drain, you 
know, the other conventional forces. This morning, in fact, 
General Dunford spoke to the Shipbuilding Caucus and spent a 
large portion of his remarks about the fact that we need to 
deal with this.
    We had a surface combatant hearing last week, where Admiral 
Mercado came over. Same thing. You know, the conversation just 
always, like, migrates to this issue.
    And so there are two high-profile amendments on the floor 
of the House. Mr. Forbes, who is not here, and myself and 
others, you know, on a bipartisan basis, led the charge to 
protect this upgrade of the fund--321 to 111, 74 percent in the 
House Republican Caucus, 74 percent in the House Democratic 
Caucus.
    So people are actually starting to get to the point where 
we--as you are--your comments are we need to think about this. 
I mean, we are past that, very frankly. We are ready to act.
    And what I am asking you is that, you know, when--if you 
don't like the Sea-Based Deterrence Fund, fine, you know, 
then--you know, but come back to us with something. You know, 
you just get the impression that the budget planners at the 
Pentagon and the administration are just spectators here in 
terms of us trying to come up with a fix to this that will 
avoid all of the negative fallout, which, again, you described 
very powerfully here this morning.
    So I was just wondering if you could, you know, just share 
your thoughts in terms of our work that we are doing on this in 
terms of whether, you know, at some point, you guys are 
prepared to embrace it and help us advance what I think is a 
solution that has precedent in the past in terms of the 
[National Defense] Sealift Fund and ground-based missile 
defense.
    Secretary Work. Thank you, sir.
    This is our number one mission. We are going to pay for it 
no matter what.
    In the past, Congress has added money for strategic 
modernization during periods of these times where we are 
starting to recapitalize, and we hope that is going to happen 
again, and we would very much appreciate the theory of the case 
behind this fund. We believe that there is going to have to be 
something like that to help us through.
    As I said, up until this time, it has been theoretical. In 
2021, as you know, sir, the Ohio replacement--the first Ohio 
replacement, we pay for. If we paid for it all in that single 
year, it would be a $7 billion add to the Navy, and they 
average only about $15 billion to $16 billion a year in their 
entire shipbuilding account. It would be enormously destructive 
to the Navy to have to fit that in within their topline.
    So it is--we want to work with you, and we are anxious to 
work with you on figuring out how to do this.
    But I just wanted to foot-stomp what--something that the 
vice chairman said. It is one thing saying that we would eat it 
within a fixed topline. That would cause enormous disruption to 
our program not just in the Navy but across all of our 
services.
    So we are anxious to work with you, sir, and we need to do 
it.
    Mr. Courtney. Well, I would like to tease out a little more 
from you, because again, what we have done is create a 
mechanism within the budget process, again, giving, I think, 
the incremental authority, you know, all the tools that we know 
worked with Virginia and carriers and--you know, I hope at some 
point, you know, the powers that be are going to kind of spit 
it out here in terms of whether or not they are willing to use 
this fund, which obviously the huge vote in Congress shows 
that, you know, we are ready and, in fact, we are moving 
forward.
    And we--you know, we hope that the, you know, 
administration is going to help us solve this problem.
    With that, I yield back.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And thank all the witnesses. And Admiral Winnefeld, thank 
you very much for your service. Congratulations on retirement--
upcoming retirement.
    Two weeks ago, this committee received the State 
Department's second straight noncompliance report about 
Russia's violation of the INF Treaty. And for many years prior 
to these last 2 years' official reports, we had had evidence of 
their noncompliance.
    And it is against that backdrop that I want to ask this. 
The committee learned in December that the Joint Staff was 
conducting an assessment of possible military responses to 
Russia's noncompliance. And my understanding is that that 
assessment--and you briefed us on that assessment, by the way, 
in March and we appreciate that. It is my understanding that 
Chairman Dempsey has forwarded proposed responses to the 
President.
    Admiral Winnefeld, do you have a timeframe that you can 
suggest to us that you will get some direction from the White 
House as to military responses to Russia's continued INF 
violations?
    Admiral Winnefeld. Sir, I don't have a specific timeline 
for you. I know it is something that the interagency policy 
committees and so on are looking at, consulting with allies on. 
I don't think that we want to necessarily rush into a 
definitive move because we would like to bring Russia back into 
this treaty.
    But there is no question, as you point out, that we have 
got options at hand that I can't really discuss in an 
unclassified hearing, but those options are available for use. 
Some of them are expensive. None of them contribute to Russia's 
security and they need to understand that. They need to come 
back inside this treaty.
    Mr. Rogers. In all deference, we are not rushing into 
anything. This has been going on for years. It is just the last 
2 years that the administration has officially recognized it. 
He is playing us along and we are just letting him. And I just 
don't understand why it continues to go on. I know you are not 
the President and you can't tell him what to do, but we need to 
be making some decisions and doing something proactively.
    Which leads me to my next question. I am really worried 
about, you know, Secretary Work talked about the provocative 
statements, and I think you made reference to it, that the 
Russian military leadership's made toward our NATO allies, 
trying to jar their resolve. And I am worried about them 
fracturing NATO.
    So I guess my question is: What is the U.S. doing to alert 
our NATO allies to the seriousness of Russia's violation and 
the threat that they pose? And then what are we doing to 
reassure them that we are going to be there and everything is 
going to be okay?
    Admiral Winnefeld. Sir, we have had very close 
consultations with our NATO partners on the nature of the 
Russian violation of the INF Treaty. They are well aware of the 
fact of and that we are--we still remain deeply committed to 
our Article 5 obligations with NATO.
    Secretary Carter is over there today with the NATO 
ministerial. I am sure he is discussing this with them both in 
the major forums and also on his pull-asides that he has with 
various NATO leaders. But the NATO leadership there of the 
various partners and of the NATO command structure are very 
well aware of this and very well aware that we are determined 
to not permit the violation of the INF Treaty to create a 
greater threat to NATO than currently exists.
    Mr. Rogers. Do you believe--because, you know, I was just 
there. I have been there twice in Eastern Europe in the last 6 
months, most recently with the full committee chairman. They 
are very concerned about our resolve. Do you believe that we 
are being muscular enough in our military posture in the region 
to reassure them?
    Admiral Winnefeld. I would be--I would challenge their 
concerns about our resolve. We are trying to help buttress 
their resolve. We are one of the very few nations in NATO that 
has met the 2 percent investment obligation of GDP [gross 
domestic product]. Secretary Carter is over there right now 
encouraging the rest of them. And in fact, that is quite a 
topic of discussion right now in Brussels in terms of getting 
the rest of the alliance to reach its commitment of 2 percent 
of GDP funding for defense.
    So, we are reassuring them. They should be well aware of 
our firm commitment based on what we have done lately with the 
European Reassurance Initiative [ERI], thankfully with the 
support of Congress, and all of the actions that we have been 
taking.
    Mr. Rogers. They see that very inadequate. And we met with 
defense ministers and presidents of four different Eastern 
European countries--allies--and they see that as a limp-wristed 
reassurance, the ERI.
    But anyway, my time is expired. I look forward to my next 
series of questions.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Let me take this in a little different direction, and my 
questions will go to Secretary Sherwood-Randall.
    The deal with the new pit facilities, and if you could 
explain the rationale behind the need for 50 to 80 capacity, 
the costs associated with that, and then a discussion of the 
need--well, let's go there, and then another question after 
that.
    Secretary Sherwood-Randall. Thank you, Mr. Garamendi.
    I will begin by noting that in the questions that have 
recently been asked, for example by Chairman Rogers, we 
understand the need for a fully responsive nuclear 
infrastructure, given the dynamic threat environment that we 
face. And one aspect of that, approved by the Nuclear Weapons 
Council, is the plutonium strategy, which requires us to meet 
certain targets in terms of production of plutonium pits over 
the coming decades.
    That strategy will enable us to move out of an old facility 
built in 1952 by 2019 at Los Alamos, and produce up to 30 
plutonium pits per year by 2026, which will be necessary to 
ensure that we can continue our life extension programs, and 
construct and operate additional capabilities to produce up to 
50 to 80 pits by 2030. Again, giving us the flexibility should 
we need it, given the dynamic threat environment, to utilize 
those pits.
    Mr. Garamendi. And the cost?
    Secretary Sherwood-Randall. And the cost associated with 
those pits, with that strategy, I will have to come back to you 
with an answer for the record.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Garamendi. It would seem to me that you would want to 
know that at the outset. There seems to be some shortage of 
money for all of this. So what is the cost?
    Secretary Sherwood-Randall. So, as you have heard, we face 
very significant budgetary challenges on this front. And the 
requirement for investment to enable us to have a responsive 
infrastructure is significant.
    Mr. Garamendi. Have you--has the committee considered 
revamping, updating the existing facility?
    Secretary Sherwood-Randall. We did consider that and the 
scrutiny that the Secretary and I and the National Nuclear 
Security Administration leadership have applied to the planning 
for major infrastructure projects has been very significant. 
And what we have done is set up a whole new process for 
examining the kinds of buildings that we need to build to 
recapitalize that infrastructure, to ensure that we do it in 
the most effective way from a taxpayer perspective.
    Mr. Garamendi. It seems to me that the starting point of 
this is somebody decided you need a capacity of 50, and now it 
is 80 pits a year, if I just heard you correctly. And then you 
backed from there into a facility to accomplish that. But you 
have not yet told me why you need 50 to 80 new pits a year.
    Secretary Sherwood-Randall. Thank you for seeking 
clarification on this.
    The objective is to give us the flexibility to produce 
additional plutonium pits----
    Mr. Garamendi. Why should we need flexibility?
    Secretary Sherwood-Randall. Because we cannot predict the 
threat environment that we will face as a nation 10, 20, or 30 
years from now. We want to make sure that we have the 
infrastructure necessary to respond should a President of the 
future need to pursue the modernization of our nuclear 
capabilities in light of those threats.
    Mr. Garamendi. Oh, some day we might want it, and therefore 
we are going to build it now and we don't have the money to do 
so.
    Secretary Sherwood-Randall. We can't snap our fingers and 
produce the infrastructure and the human talent required to 
support this program.
    Mr. Garamendi. What is the capacity of the current pit 
production facility in Los Alamos?
    Secretary Sherwood-Randall. It is much lower.
    Mr. Garamendi. And it is what number?
    Secretary Sherwood-Randall. And I will have to get back to 
you----
    Mr. Garamendi. It is somewhere between 10 and 20.
    Secretary Sherwood-Randall. But I want to confirm it 
precisely.
    Mr. Garamendi. And that is one shift a day; multiple 
shifts, upgrade of the existing facility could produce far more 
than the 10 or so today. Check it out and get back to me, 
please.
    Secretary Sherwood-Randall. I promise to do that.
    [The information referred to can be found in the Appendix 
on page 64.]
    Mr. Garamendi. Thank you.
    I think I am out of time, but there is a whole series of 
other questions having to do with the MOX [Mixed Oxide Fuel 
Fabrication] Facility, and specifically on the question of the 
September report. Is it online? Is it moving forward? And can 
we expect to see it in September?
    Secretary Sherwood-Randall. Would you like me to get back 
to you for the record on that?
    Mr. Garamendi. No, I would like an answer now. You ought to 
know.
    Secretary Sherwood-Randall. Okay. I am sorry. I thought you 
said you were out of time. May we continue?
    Mr. Garamendi. Yes, you have 22 seconds.
    Secretary Sherwood-Randall. Okay. I will try to speak 
quickly, then.
    So as you know, both the Senate and the House have asked us 
to do additional review of the costs of the MOX Facility. And 
we are going to conduct a red team review with the director of 
our Oak Ridge National Lab to evaluate the Aerospace report 
findings and other findings about the costs associated with 
this facility to determine the best way forward.
    Mr. Garamendi. Okay, so that is due in September.
    Secretary Sherwood-Randall. It is, correct.
    Mr. Garamendi. Thank you.
    And finally, yes, I will take for the record the costs.
    Secretary Sherwood-Randall. I will get them to you. Thank 
you.
    [The information referred to can be found in the Appendix 
on page 64.]
    Mr. Garamendi. Thank you.
    The Chairman. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I would like to discuss the Open Skies Treaty. We had a 
hearing not too long ago called ``Worldwide Threats.'' And it 
was on February 3rd. Lieutenant General Stewart, the director 
of the Defense Intelligence Agency [DIA], was asked about the 
Open Skies Treaty. The general said this--he said, ``The Open 
Skies construct was designed for a different era. I am very 
concerned about how it is applied today and I would love to 
talk about it in a closed hearing.''
    We had the chairman of my subcommittee, Mr. Rogers, send a 
request for information to Admiral Haney, commander of U.S. 
STRATCOM [Strategic Command]. And his letter came back and it 
said, ``I agree with Lieutenant General Stewart, director of 
DIA, in his assertion that the Open Skies construct was 
designed for a different era.''
    He goes on to say that Russia's application today has gone 
beyond the original intent of the treaty. He said the United 
States in concert with our allies continues to address these 
concerns. He says, ``I am concerned the treaty has become a 
critical component of Russia's intelligence collection 
capability directed at the United States. In addition to 
overflying military installations, Russia's Open Skies flights 
can overfly and collect on DOD and national critical 
infrastructure.''
    Deputy Secretary Work, are you aware that the most recent 
compliance report from the Department of State indicates Russia 
is not in compliance with this treaty?
    Secretary Work. I am, sir.
    And this is something that we would really like to talk 
about in a closed hearing, but we are concerned about what 
Russia is doing as well as all of their other intelligence 
activities that are focused on our nuclear mission.
    Mr. Bridenstine. Do you have any reason to believe the 
Russians are using the treaty for reasons beyond what it was 
ratified for?
    Secretary Work. We are concerned on the way they are 
operating, as Admiral Haney said. We think that they are going 
beyond the original intent of the treaty and we continue to 
look at this very, very closely.
    Mr. Bridenstine. So, the Russians have requested that we 
continue this treaty and that they are able to use even more 
advanced sensors. Do you believe it is prudent to accede to 
Russian proposals to fly increasingly advanced sensors over the 
United States?
    Secretary Work. That is in discussion right now sir, inside 
the Department.
    Mr. Bridenstine. So would you say that you don't have an 
opinion on that at this point, or----
    Secretary Work. Not until we look at all of the different 
aspects.
    Mr. Bridenstine. Okay. This is an issue that is going to 
continue to be of high interest, I know, to me, and of course 
to the chairman of the Strategic Forces Subcommittee, Mr. 
Rogers, whose committee I am honored to serve on.
    Also for you, Deputy Secretary Work, is Russia modernizing 
its nuclear forces to include developing and deploying new 
types of ICBMs and submarine-launched ballistic missiles 
[SLBMs]?
    Secretary Work. Yes, they are undergoing, as the vice 
chairman said, a wide-ranging modernization of their entire 
nuclear force.
    Mr. Bridenstine. Is China modernizing, including new 
types--again, new types of ICBMs and SLBMs?
    Secretary Work. Yes, they are modernizing both the warheads 
that are on their silo-based missiles, as well as deploying 
road-mobile missiles.
    Mr. Bridenstine. Are we, as the United States, modernizing 
to include new types of ICBMs and SLBMs?
    Secretary Work. Right now, our modernization plan is to 
replace the Minuteman III with a ground-based strategic 
deterrent to replace our Trident force with the Ohio 
replacement platforms, to replace our bombers with the long-
range bomber, and to replace our air-launch cruise missile with 
the long-range--new long-range----
    Mr. Bridenstine. So we are maintaining our current 
strategic deterrent while they are creating new and more 
advanced strategic deterrent capabilities. Do you agree with 
that?
    Secretary Work. Well, it is just on their timeline. The 
Russian timeline. Their system started to age out before ours, 
so they are in the midst of their modernization cycle, as the 
vice chairman said.
    Our cycle is coming up in the 2020s and early 2030s.
    Mr. Bridenstine. But remember, they are advancing beyond 
where they currently are, and we are staying stagnant. Is that 
correct?
    I mean, I understand we are modernizing what we currently 
have, but we are not creating any new technologies.
    Secretary Work. They are--again, they are replacing old 
systems with new systems. That is correct, Congressman. But 
they are staying within the New START in our estimation. So 
they are not increasing the size of their force.
    Mr. Bridenstine. I have just got a few seconds left. I 
heard you earlier. You mentioned that there was--we will just--
we will take it offline. We will ask questions later. Thank 
you, Mr. Chairman. I yield back.
    The Chairman. Appreciate it. If the gentleman wishes to 
ask--submit questions in writing--of course, I am sure the 
witness is--will be able to respond.
    Ranking Member.
    Mr. Smith. I thank you, Mr. Chairman.
    And I apologize for being absent earlier. I had a physical 
this morning that went on, and on, and on, took forever.
    So I want to be sure and be here for one thing, to thank 
Admiral Winnefeld for his service. And you know, we have joked 
with General Dempsey, we have had numerous last hearings for 
him. So, we dare not make a prediction. You may be back. Who 
knows.
    But if this is your last hearing, just want to thank you 
very much for a great working relationship and for your 
service. You have done a fantastic job.
    And following up on the last point there, Russia may be 
modernizing, but a nuclear weapon is a nuclear weapon. It is 
pretty powerful. We have, you know, we have I think 4,800 and 
some-odd of them. And you know, submarine-based, ICBM-based, 
bomber-based, it is not like the Russians are building 
something that gives them some new technical advantage, 
correct?
    Admiral Winnefeld. I think the only exception to that that 
would concern me is that the greater shift towards mobile 
missiles in their ICBM force; their submarine-launched 
ballistic missile force, even with their improvements, is not 
as good as ours.
    Mr. Smith. Sure.
    Admiral Winnefeld. Their bomber leg is not as good as ours. 
But I think the mobile missiles is probably of a greater----
    Mr. Smith. But the advantage of the mobile thing is it is--
it would be hard for us to hit it in a first strike. But with 
4,800 nuclear weapons, we could hit them pretty hard, even if 
we couldn't necessarily hit the mobile nuclear missiles, 
correct?
    Admiral Winnefeld. They are not invulnerable. Yes, sir.
    Mr. Smith. And so I think that the larger point, and we get 
bogged down in this modernization debate, and I think the more 
important debate is what is our deterrence strategy?
    Because look, if it comes to it, A, bad, all bad no matter 
what. B, we got plenty of firepower under just about any 
scenario that you are going to see, to basically destroy the 
planet in combination, you know, with whatever the Russians do.
    Now, we have to make sure that we maintain--that we upgrade 
systems that are failing, falling offline and all that. I 
understand all of that. But I think obsessing over you know, oh 
my gosh, they are a little bit more mobile, it is a nuclear 
weapon, which I forget the number, but it is like thousands of 
times more powerful than either of the bombs we dropped on 
Japan in World War II.
    So, it is a pretty significant deterrent. I think the 
larger, more difficult question is, what is our deterrence 
policy, and how well do we understand that within the Pentagon?
    And you know, we had a deterrence policy during the Cold 
War, which was basically, we felt that the Soviets had us, you 
know, outmanned in Europe conventionally. And so part of our 
deterrence policy was you go too far in Western Europe and we 
will nuke you.
    And it worked. I mean, they went into Czechoslovakia, they 
went into Hungary, they pushed the envelope a little bit.
    But what is our policy on you know, when we would do first 
use? What if they go into a NATO country and start messing with 
them?
    And I would also--permission to answer that question, and I 
would suggest that communication between us and the Russians 
and us and the Chinese, the Russians being far more important, 
whatever our differences may be on a wide range of other 
subjects, a robust communication to make sure that those 
differences don't lead to us destroying the planet is something 
that I think should be a huge part of our deterrent strategy.
    That is why I don't have a problem, even with the 
differences that we have with China, that we do a joint--would 
do some joint military exercises.
    You know, we worked with Russia on Afghanistan. We worked 
with Russia--we are doing the P5+1 [China, France, Russia, the 
United Kingdom, and the United States, plus Germany] 
negotiations on Iran. Anything that can make sure that we 
communicate and don't, you know, inadvertently start Armageddon 
because of a lack of communications, I think should be a huge 
part of our deterrence policy.
    But what is our deterrence policy in terms of use of 
nuclear weapons, and what is our understanding of Russia's 
deterrence policy?
    Secretary Work. Well, right now our policy is to achieve 
nuclear parity with Russia, and that is established under the 
New START treaty.
    Mr. Smith. Right.
    Secretary Work. We do not assess that China is trying to 
achieve parity with either of us. The primary role of our 
nuclear mission, our nuclear forces, is to deter an attack on 
the continental United States, our allies, and our partners.
    We state very clearly that the use of nuclear weapons will 
cross an escalatory red line. We do not make explicit what our 
reactions would be, but we do say that we have the full force 
of our nuclear arsenal behind us to respond as needed, and as 
the President directs.
    So our policy is to deter an attack on the United States 
and try to reduce the role of nuclear weapons in our normal 
national security strategy around the world.
    Mr. Smith. Because Russia now has the conventional 
disadvantage that we at least perceived ourselves to have 
during portions of the Cold War. So one of the concerns is that 
if they feel that they are conventionally outgunned, they might 
go the nuclear route. And we communicate clearly to them that 
that will receive a proportional response, regardless of how 
they--you know, they view the conventional situation, that is 
part of our deterrence strategy.
    If you use a nuke against anybody, then you have got at 
least one coming back at you.
    Secretary Work. It is a very important point sir. Whenever 
your conventional and your nuclear deterrence capabilities get 
out of whack, you tend to rely on one or the other.
    Mr. Smith. Right.
    Admiral Winnefeld. And the Russians believe that we have a 
significant conventional force advantage, and therefore they 
rely more on their nuclear weapons as a deterrent. What we are 
concerned about is the way they explain their escalatory 
posture.
    We believe that is extremely problematic, and something 
that I agree with you that we need to be constantly talking 
with the leaders of Russia to say we do not want this to lead 
to a miscalculation.
    Mr. Smith. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to our witnesses for your thoughtful remarks 
today. My question is related to--I want to turn to North Korea 
and Iran.
    North Korea is continuing to grow a small arsenal of 
nuclear and advanced missiles. Recently, North Korea claimed 
that it has tested a new type of missile from a submarine, and 
that they had built a nuclear warhead small enough to be 
mounted on a long-range missile.
    Then you have Iran's proliferation of nuclear weapons 
capability. And as we are on the precipice of a potential deal 
with the Obama administration which would allow Iranian 
production of nuclear fuel to continue. These are very real 
threats we have today, and it is my belief that we need all 
possible capabilities available to deter and protect our own 
national security and our allies.
    Just this week, Admiral Haney reaffirmed his commitment to 
strong deterrence against potential threats by North Korea, so 
I am wondering, at this point when some of our most important 
strategic weapon systems are aging, what do you think this says 
about our priorities?
    Secretary Work. Well we believe, as we have said over and 
over, that nuclear deterrence is our number one mission. We 
take it very seriously. We believe that we do have a strong 
nuclear deterrent. Our force today is, we believe, the best 
nuclear force on the planet, period.
    The modernization recycle that is coming up in the 2020s is 
something that we need to face together to make sure that it 
stays at that point. We are absolutely confident that we can 
stay ahead of the capabilities that the North Koreans, and as 
the President said, we are absolutely committed to preventing 
them from acquiring a nuclear weapon.
    Ms. Stefanik. Thank you. My next question, I wanted to ask 
about the President's decision to reject dealerting the U.S. 
ICBM forces. President Obama's nuclear employment guidance 
rejects the notion of dealerting U.S. nuclear forces, while 
continuing to examine options to reduce the role of ``launch 
under attack'' in U.S. planning.
    Can you explain why the President made this decision?
    Secretary Work. It is very simple that when every one 
dealerts, the race to alert, it becomes escalatory, and 
provides incentives for another side to try to preempt before 
you can raise your alert level. Therefore, it was decided that 
a dealert posture would actually raise the possibility of a 
miscalculation, and we decided against that.
    Ms. Stefanik. Are there any other comments from the other 
witnesses?
    Admiral Winnefeld. I would just say there is an awful lot 
of folklore out there regarding the alert piece of this, that 
it puts our nuclear weapons on a hair trigger. And the fact of 
the matter is that they are not on a hair trigger, they are--
the system is designed such that there is exquisite control 
over the employment of a nuclear weapon. The President is the 
only person who can actually authorize that. And it is not 
possible to launch one unless he does that. You can't have a 
rogue actor down there somewhere in a silo actually launching a 
weapon.
    So, the benefits of dealerting in terms of preventing an 
accidental launch are very small, where the drawbacks that 
Deputy Secretary Work pointed out are substantial.
    Secretary Work. We do do open-ocean targeting of our 
submarine-launch ballistic missiles, and we have dealerted our 
bombers.
    So we do believe we have taken the prudent steps to make 
sure that we are--you know, we are deemphasizing a hair-trigger 
response, as the vice chairman said, but we thought that 
dealerting ICBMs would actually cause us more problems than it 
would solve.
    Ms. Stefanik. Thank you very much.
    I yield back.
    The Chairman. Thank you. Mrs. Davis.
    Mrs. Davis. Admiral Winnefeld, thank you very much for your 
service, all your contributions to our national security. I am 
going to go back to my colleague Mr. Langevin's question about 
verification and detection and the importance of that. He had 
quoted the 2014 Defense Science Board [DSB], which concluded 
that much work does remain to be done on verification and 
detection technologies, and interagency cooperation, and we are 
talking about our own country, not working with our allies at 
this time.
    Do you agree with that? Do you think that there is much? 
And what are those specific gaps that we need to be sure that 
we are doing so that we are picking up the problems that exist 
in the technology and sensors, all that we are using in 
verification?
    Admiral Winnefeld. Ma'am, I am going to have to review the 
DSB study. We are very confident that our verification measures 
for the New START treaty are quite good. And as you know, as we 
are dealing with Iran, being transparent and verifiable are the 
absolute two key pillars of what we are trying to do. So I am 
not certain of what the DSB said, but I will be happy to review 
it and get back with you.
    Mrs. Davis. Okay. Any other comments on that? Are you 
familiar? Okay.
    And then we have talked a lot about the modernizing 
recapitalization. I think people have had some, you know, 
different thoughts about that. But I think one of the concerns, 
at least on the surface, would be that the NNSA submits a 25-
year plan for how we are going to deal with these issues, and 
yet the Department of Defense does not.
    So, I think the concern, you know, how is the DOD planning 
beyond 2025? What is it that we are doing even to think about 
reducing cost? Because we know that in many situations, we have 
costs that go far out of the realm of what initially was 
planned.
    How are we going to manage peak spending? And we may see 
some of these programs converging as well. Where are we in 
that? And is that a criticism that is justified in terms of the 
Department of Defense in not doing that planning that far out, 
knowing that we are looking at an awfully lot of money here?
    Secretary Work. Congresswoman, we do have a good 
understanding of what we need to do over the course of the next 
20 years. The Ohio Replacement Program starts first. We will 
start replacing our Trident boats first. Then will come the 
LRSO [Long-Range Standoff weapon], along with the bomber in the 
mid-2020s. And then will come the ground-based strategic 
deterrent, which we have to--Minuteman starts to age out in 
2030.
    We also have a dual, I mean a nuclear capability for the F-
35 which is planned for a future flight.
    So we understand the general costs of all these. We 
understand the--how they will unfold. Twenty-year cost 
estimates are uncertain, but we can provide you with our 
estimates over this period.
    We are quite confident we understand what we have to 
replace, the timing we have to replace, and the rough costs 
that will require us now.
    Mrs. Davis. Is there--do you think that in terms of working 
along the same lines of NNSA that you are meeting those 
requirements?
    Admiral Winnefeld. Ma'am, we have a very good discussion 
through the avenue of the Nuclear Weapons Council with NNSA. 
And we, I think, do a pretty good job of trying to synchronize 
our programs. And the LRSO is a classic example of trying to 
make sure that the life extension program for the W80 warhead 
would be synchronized well with the introduction of that new 
weapon system.
    So--and we submit a 5-year Future Year's Defense Plan, 
which is a detailed program. But we plan well beyond that. The 
program managers, the services, and the like have very detailed 
understanding of how those programs propagate out through 
decades to include life-cycle costs and the whole piece.
    And we would be happy to come brief you on that if you 
would like.
    Mrs. Davis. All right. Great. Thank you very much. Thanks 
again for your service.
    The Chairman. I had just a handful of follow-ups.
    Mr. Secretary, editorial comment. Saying something is a red 
line doesn't quite have the punch it once did. And I think that 
is part of Mr. Rogers' point about allies who are concerned 
about our reliability. And so that is at least what we hear as 
we travel, not just in Eastern Europe, but in other places.
    Admiral, I want to take advantage of 37 years on a 
question. Obviously, at one point, this subject of nuclear 
deterrence received a tremendous amount of attention, 
intellectual energy, planning, and then it didn't.
    And while understandably we have been focused so much on 
terrorism and other challenges, now we are having to kind of 
reinvent, not reinvent, but to develop those skills again, to 
put that emphasis, I think, on nuclear deterrence and its 
credibility, which is really, to me, the key characteristic in 
all of this.
    So I would be interested in your view. Are we there, where 
we need to as far as especially the intellectual planning and 
firepower on nuclear deterrence?
    Admiral Winnefeld. I think that is an excellent question. 
Point well taken.
    And the way I would approach the answer is that across the 
broad intellectual base of the military, let's say especially 
in the senior officers' corridor, I would say you know, O-5 and 
above, how steeped have we educated our broad workforce in 
nuclear deterrence matters?
    When they attend war colleges, they get a good dose of it. 
And they may, you know, hear about it, see--read particular 
articles and the like on their own. But I would tend to agree 
with you that over the last 15 years or so, particularly since 
the--we have been in the post-9/11 era, that a substantial 
share of our intellectual bandwidth has been shifted over 
towards counterterrorism and the like.
    I would also say though that in the niche that is the 
nuclear business, and I have a wonderful Air Force officer with 
me, Major General Tom Bussiere, who has grown up in that 
business. They are still doing pretty well. The Strategic 
Command folks, the Air Force, Navy, nuclear deterrence 
community has retained its interest and focus on this 
particular mission.
    So, I think we are doing okay in that stovepipe, but I 
think your point is well taken that we need to make sure that 
we are emerging from this last 15 years that we have been in, 
and make sure that the broader force has a robust understanding 
of this question. It is a good point.
    The Chairman. Well, especially as the Russians seem to 
broaden the circumstances under which at least they threaten to 
use nuclear weapons. I want to ask one other question here, 
about this idea that a nuke is a nuke is a nuke.
    I am old enough to remember a debate in the 1970s about a 
neutron bomb, which is a nuke, but it has very different 
characteristics than the existing weapons that we have. And my 
understanding is a variety of actors around the world are 
developing new weapons in the sense that it is not just 
replacing what they had, but it is adding weapons with some 
different characteristics, which gets in my mind back to this 
credibility issue.
    And as you know, the argument has been that our very large 
nuclear weapons that were designed for a Cold War exchange are 
not as credible as other weapons might be in a different 
strategic landscape.
    Would you care to comment on that?
    Admiral Winnefeld. Yes, sir.
    Two things. One, I would say we do have a range of--for a 
lack of a better word, dialability in some of our weapons. So 
that we do have low-yield weapons that we can call upon to--for 
the President to use if he sees fit.
    So, we don't have a lot of work going on in vastly 
different weapons, like a neutron weapon or something like 
that. But in terms of the scale--scalability of a nuclear 
detonation, we can cover that fairly well.
    What I spend more of my time worrying about is the delivery 
systems; making sure that they are modern in the sense of 
reliable. They are not old. But also that they are also 
incorporating new technology.
    And I would contend that the systems that we are developing 
new to deliver these weapons, should it be necessary, and 
hopefully it won't be, are very advanced. The LRSB [Long-Range 
Strike Bomber] is going to be a very advanced bomber.
    The Ohio replacement submarine is going to be very quiet. 
It is going to be a very capable boat.
    And the ground-based strategic deterrent will of course be 
better than what we have now.
    So we are making more than just incremental but less than, 
you know, major changes in how we deliver these things. But I 
also think we have the array of scalability on our nuclear 
weapons where we need it to be.
    The Chairman. Yes. I just think, as Mrs. Davis said, I 
think there gets to be a little confusion. We talk about 
modernizing. Well, it is one thing to replace something with 
something that is just like it, but as you point out, whether 
we are talking delivery systems or the warheads themselves, our 
adversaries are not--the Russians for example, are not 
replacing a system with this exact same system just made newer. 
It has different characteristics. And I think we have to keep 
that in mind.
    Madam Secretary, I want to get back to responsive 
infrastructure right quick.
    A lot of what we have under New START is a lot fewer 
weapons but part of the agreement was we would have a more 
responsive infrastructure and ability to respond quickly to 
ensure that this deterrent remains credible.
    Now, we--you would not say that we have a responsive 
infrastructure today, right?
    Secretary Sherwood-Randall. I believe we do have a 
responsive infrastructure today, but we must make the 
investments that I described in my statement that I submitted 
as well as my opening remarks. We need to ensure that we retain 
the capabilities that Admiral Winnefeld and you have just had 
an exchange about this on the delivery system side. Similarly, 
on the weapons production side, we need to retain the workforce 
and we need the infrastructure to support them.
    And that is the intellectual workforce that we are 
discussing. The people who are doing the work right now on 
stockpile stewardship and on modernization are the very people 
we need to invest in. We need to recruit the next generation of 
people who will do that work in the future to ensure that we 
have that responsive infrastructure for decades to come. And so 
I would say now we have what we need, but we have put forward 
to you an historic budget on this front in this 2016 request to 
ensure that we are making the investments we need going forward 
to retain that responsive infrastructure. Because we did 
suffer, unfortunately, following the New START agreement, from 
a cutback in the kind of investment that we anticipated in 
advancing that agreement.
    The Chairman. Well, I certainly do not want to diminish the 
importance of the budget request the administration sent up 
this year, because I do think it has turned things around.
    But I am not sure that I am with you that our response--
that our infrastructure is as responsive as it needs to be 
today, because I just see too much evidence, not only of the 
people retiring, other people choosing other lines of work, and 
a variety of problems, some of which we have kind of touched on 
today, but others of which we haven't.
    Secretary Sherwood-Randall. Mr. Chairman, I think together 
we need to signal to people that this matters.
    The Chairman. Yes.
    Secretary Sherwood-Randall. We are doing that by virtue of 
holding this hearing. My colleagues and I do it by the work we 
do every day. And I look forward to working together with you 
to ensure that we continue to send that signal across our 
Nation.
    The Chairman. Well, I think that is a very important point, 
and maybe that is a good point to end on, because I do think 
whether we are talking about the intellectual bandwidth for 
nuclear deterrence, whether we are talking about attracting the 
best scientists to work in our nuclear weapons labs and plants.
    People need to know that this is the most important element 
of our Nation's security, and it will continue to be and it 
will receive the investment that is deserving of that. And so 
if there is one point I think we hopefully all agree on, it is 
that we need to continue to attract the best and the brightest. 
And have facilities that can meet the unexpected.
    Because as these machines age, there will be more 
unexpected.
    Thank you all for being here. I very much appreciate your 
testimony and look forward to working with you all, at least 
for a month or longer.
    So, thank you.
    Secretary Sherwood-Randall. Thank you, so much.
    The Chairman. With that, the hearing is adjourned.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]

?

      
=======================================================================




                           A P P E N D I X

                             June 25, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 25, 2015

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

        

    
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 25, 2015

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Secretary Work. The dependence on, and use of, verification 
measures in arms control agreements has been the hallmark of the United 
States' ability to monitor the compliance of other Parties and to 
detect violations of the terms of the agreements.
    More comprehensive verification measures lead to greater confidence 
in the United States' ability to verify that other Parties are abiding 
by the terms of treaties and agreements, which provides a strong 
deterrent against violations, and the warning required for us to 
counter violations if they occur.
    The Department of Defense reviewed the recommendations of the 
Defense Science Board's (DSB) 2014 Assessment of Nuclear Monitoring and 
Verification Technologies and subsequently participated in several 
months of study and policy review in concert with other departments and 
agencies to address findings from the report. Work on this issue went 
beyond verifying treaty compliance; it explored interagency structure 
and processes to enable departments and agencies to more effectively 
detect and provide early warning of nuclear proliferation by State and 
non-state actors. We believe the work conducted in this regard will 
have an enduring positive effect on the ability to monitor treaty 
compliance and detect nuclear proliferation outside formal treaties and 
agreements.
    The Administration will be submitting a report to Congress later 
this year regarding efforts to address findings in the DSB Report.   
[See page 14.]
    Secretary Sherwood-Randall. Detecting material production and 
movement are essential to monitoring activities of interest and 
verifying compliance. In line with the recommendations of the January 
2014 Defense Science Board (DSB) Report, Assessment of Nuclear 
Monitoring and Verification Technologies, the Department of Energy's 
National Nuclear Security Administration (DOE/NNSA) continues the 
development of U.S. capabilities that address current and projected 
threats to national security posed by the proliferation of nuclear 
weapons and diversion of special nuclear material by investing in near- 
and long-term efforts in the DOE National Laboratories, academia, and 
industry. In its August 2014 Report to Congress on the Progress on the 
National Research Agenda for Nuclear Nonproliferation & Arms Control 
Verification Technologies, DOE/NNSA describes the national research 
agenda to create technologies to detect state and non-state efforts to 
develop or acquire nuclear devices or weapons-usable nuclear materials. 
This Report addresses DOE/NNSA's progress and plans for such research 
and development and describes DOE/NNSA's general concurrence with the 
DSB report's key findings.   [See page 14.]
    Admiral Winnefeld. Verification is an important concern for any 
treaty or agreement and is a key factor when deciding whether to sign 
and ratify a treaty. Yes, I agree with the 2014 Defense Science Board 
conclusion that additional work remains to be done. The United States 
continually seeks to improve verification methods and technologies and 
the Department of Defense actively participates in interagency efforts 
to improve coordination of research and development (R&D) that are 
focused on both current and emerging nuclear proliferation threats.   
[See page 14.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    Secretary Sherwood-Randall. The near-term goal of the Plutonium 
Strategy is to provide the infrastructure and resources that will 
sustain critical plutonium capabilities necessary to meet pit 
production requirements. This involves maintaining and maximizing the 
use of existing facilities at the Los Alamos National Laboratory 
(LANL): the Radiological Laboratory/Utility/Office Building (RLUOB), 
and Plutonium Facility (PF)-4. The preliminary cost range of efforts to 
further equip the RLUOB and re-purpose space in PF-4 to support a 
production capacity of 30 pits per year by 2026 is $1.5 billion to 
$2.15 billion. Additionally, annual funding for programmatic equipment 
and critical skills that support pit production are funded through the 
Plutonium Sustainment Program, which requested $174.7 million in Fiscal 
Year (FY) 2016. We anticipate that additional infrastructure is needed 
to support production beyond 30 pits per year and are refining the 
costs associated with that scope.   [See page 20.]
    Secretary Sherwood-Randall. Current planning efforts call for the 
production of four to five developmental pits per year in the FY 2016-
2018 timeframe, as part of the lead-up to war-reserve pit production 
and as we continue to execute infrastructure investments in existing 
facilities. Once these infrastructure investment activities are 
completed, the current plutonium facilities at Los Alamos National 
Laboratory will support up to a 30 war-reserve pits per year production 
capacity by 2026.   [See page 21.]
    Secretary Sherwood-Randall. The Department has an ongoing 
independent study being conducted by Aerospace, a Federally Funded 
Research and Development Center (FFRDC) to assess the options for 
disposing of 34 metric tons of weapon-grade plutonium. This report was 
delivered to Congress in August 2015. In addition, a Red Team led by 
Thomas Mason (Director of Oak Ridge National Laboratory) completed its 
assessment of plutonium disposition options. The red team report has 
been sent to the House Armed Services Committee and Dr. Mason briefed 
members and staff on the team's findings. Both the Aerospace study and 
the Red Team review include assessments of the costs of each plutonium 
disposition option.   [See page 21.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 25, 2015

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. What confidence do you have that the United States could 
reliably control a nuclear war? How could we improve communications and 
clear signaling to avoid miscalculation?
    Admiral Winnefeld. The fundamental role of U.S. nuclear weapons is 
to deter nuclear attack on the U.S., our allies, and partners. Our 
nuclear posture has successfully achieved this goal for over half a 
century. However, should deterrence fail at some point in the future, 
we are confident U.S. nuclear forces could be deployed or employed, if 
authorized by the President, in such a manner that would enhance the 
probability of ending the conflict on terms favorable to the United 
States, our allies, and partners. We believe one of the most 
challenging aspects of such control is potential nuclear escalation in 
Europe should conventional deterrence fail and crisis erupt into 
conflict. In particular, the need to coordinate with allies amidst the 
gravity of nuclear escalation will inject some amount of entropy into 
the decision-making process.
    The clearest form of communication we can make regarding our 
determination to control this type of warfare is to be well prepared 
for it. This requires a healthy Triad, a robust and survivable nuclear 
command and control system, and a well-structured, resourced, and 
coordinated extended deterrence capability. Meanwhile, we should 
continue to explore opportunities to enhance our strategic 
communications through exercises and political and military engagements 
with our partners. Through these engagements, we are improving our 
understanding of other countries' views and perspectives on matters 
related to maintaining stability and avoiding miscalculation in crisis.
    Mr. Smith. Would you support reducing alert levels of ICBMs, if 
verifiably negotiated with Russia? Understanding the risks in a crisis, 
are there benefits of potentially giving the President more decision 
time before launching ICBM warheads? How would elevating the alert 
levels of ICBMs be different than elevating alert levels for nuclear 
bombers?
    Admiral Winnefeld. We support future negotiated nuclear weapons 
alert reductions if such a regime were verifiable with both Russia and 
China, and if the problem of re-alerting instability can be solved. 
However, creating a verifiable regime for alert ICBMs is extremely 
problematic, and is unlikely in the near-term. This, combined with the 
exceptional mitigations we have in place against an accidental launch, 
makes me very hesitant at this time to pursue such a course of action.
    There are always benefits to maximizing Presidential decision time 
in a crisis. This can be accomplished either by quickening the nuclear 
decision process or by increasing the President's survivability and 
relying more on non-ICBM legs of the deterrent. Both of these methods 
are very challenging given day-to-day realities and safeguard 
requirements for control of nuclear weapons launches.
    The ability to elevate alert levels between ICBMs and nuclear-
capable bombers is mostly about timing and visibility. The longer 
timeline associated with elevating the bomber alert level is acceptable 
because our ballistic missile force ensures a prompt response 
capability. In a crisis, there would be much greater pressure to 
rapidly re-alert a non-alert ICBM force, because of the possibility the 
adversary would otherwise perceive a window of opportunity and U.S. 
vulnerability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. As a follow-up to my question during the hearing, how 
important are verification and detection to detect cheating? A 2014 
Defense Science Board concluded that much work remains to be done on 
verification and detection technologies and interagency cooperation. Do 
you agree? What gaps remain?
    Secretary Work. The dependence on, and use of, verification 
measures in arms control agreements has been the hallmark of the United 
States' ability to monitor the compliance of other Parties and to 
detect violations of the terms of the agreements.
    More comprehensive verification measures lead to greater confidence 
in the United States' ability to verify that other Parties are abiding 
by the terms of treaties and agreements, which provides a strong 
deterrent against violations, and the warning required for us to 
counter violations if they occur.
    The Department of Defense reviewed the recommendations of the 
Defense Science Board's (DSB) 2014 Assessment of Nuclear Monitoring and 
Verification Technologies, and subsequently participated in several 
months of study and policy review in concert with other departments and 
agencies to address findings from the report. Work on this issue went 
beyond verifying treaty compliance; it explored interagency structure 
and processes to enable departments and agencies to more effectively 
detect and provide early warning of nuclear proliferation by State and 
non-state actors. We believe the work conducted in this regard will 
have an enduring positive effect on the ability to monitor treaty 
compliance and detect nuclear proliferation outside formal treaties and 
agreements.
    The Administration will be submitting a report to Congress later 
this year regarding efforts to address findings in the DSB Report.
    Mrs. Davis. As a follow-up to my question during the hearing, how 
important are verification and detection to detect cheating? A 2014 
Defense Science Board concluded that much work remains to be done on 
verification and detection technologies and interagency cooperation. Do 
you agree? What gaps remain?
    Secretary Sherwood-Randall. Detecting material production and 
movement are essential to monitoring activities of interest and 
verifying compliance. In line with the recommendations of the January 
2014 Defense Science Board (DSB) Report, Assessment of Nuclear 
Monitoring and Verification Technologies, the Department of Energy's 
National Nuclear Security Administration (DOE/NNSA) continues the 
development of U.S. capabilities that address current and projected 
threats to national security posed by the proliferation of nuclear 
weapons and diversion of special nuclear material by investing in near- 
and long-term efforts in the DOE National Laboratories, academia, and 
industry. In its August 2014 Report to Congress on the Progress on the 
National Research Agenda for Nuclear Nonproliferation & Arms Control 
Verification Technologies, DOE/NNSA describes the national research 
agenda to create technologies to detect state and non-state efforts to 
develop or acquire nuclear devices or weapons-usable nuclear materials. 
This Report addresses DOE/NNSA's progress and plans for such research 
and development and describes DOE/NNSA's general concurrence with the 
DSB report's key findings.
    Mrs. Davis. As a follow-up to my question during the hearing, how 
important are verification and detection to detect cheating? A 2014 
Defense Science Board concluded that much work remains to be done on 
verification and detection technologies and interagency cooperation. Do 
you agree? What gaps remain?
    Admiral Winnefeld. Verification measures are a vital component of 
arms control agreements. More comprehensive verification measures lead 
to greater confidence in our ability to verify whether other Parties to 
the agreement are abiding with the agreed-upon terms, which in turn 
provides a strong deterrent against violations.
    The Department of Defense reviewed the recommendations of the 
Defense Science Board's 2014 Assessment of Nuclear Monitoring and 
Verification Technologies and subsequently participated in several 
months of study and policy review in concert with other departments and 
agencies to address findings from the report. Work on this issue went 
beyond verifying treaty compliance; it explored interagency structure 
and processes to better enable departments and agencies to detect and 
provide early warning of nuclear proliferation by state and non-state 
actors. We believe the work conducted in this regard will have an 
enduring positive effect on the ability to monitor treaty compliance 
and detect nuclear proliferation outside formal treaties.
    The administration will be submitting a report to Congress later 
this year regarding efforts to address findings in the DSB Report.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Nuclear deterrence is an effort that relies on many of 
the DOE National labs including non-NNSA labs and sites. How does DOE 
plan to maintain long term infrastructure in non-NNSA labs and sites 
(such as H-Canyon and K Area at the Savannah River Site) that also 
support deterrence and non-proliferation efforts such as securing of 
vulnerable nuclear materials, a key part of this administration's 
strategy?
    Secretary Sherwood-Randall. The Department of Energy's (DOE) 
National Labs and sites are safely and securely maintained and operated 
to support the Department's nuclear deterrence and nonproliferation 
missions. DOE has repeatedly acknowledged the need for and has 
initiated efforts to assess critical infrastructure requirements and 
reduce the deferred maintenance. Currently these efforts focus on 
ensuring the effective and efficient conduct of long-term 
infrastructure maintenance at DOE National Labs and sites. The results 
of these efforts will provide greater insights into infrastructure 
conditions. DOE's goal is to ensure that each of our facilities is 
maintained to ensure the safe accomplishment of our multiple missions.
    Mr. Wilson. Please comment on the Department's strategy to ensure 
we maintain an adequate supply of tritium in the future to meet our 
nuclear deterrence needs.
    Secretary Sherwood-Randall. The National Nuclear Security 
Administration (NNSA) teams with the Tennessee Valley Authority (TVA) 
to produce the required amounts of new tritium. Tritium is produced 
when tritium-producing burnable absorber rods (TPBARs) are irradiated 
in the TVA's Watts Bar Unit 1 reactor. The tritium is extracted from 
the TPBARs at the Savannah River site. To meet future requirements, the 
number of irradiated TPBARs must increase from the 704 currently in 
place in the Watts Bar reactor to approximately 3,000 in the FY 2025 
timeframe. The ramp-up to higher TPBAR numbers has begun. To support 
this ramp-up, NNSA updated the environmental impact statement, and TVA 
submitted a license amendment request to the Nuclear Regulatory 
Commission covering the increased number of TPBARs and the insertion of 
TPBARs in a second reactor. The two reactor plan is considered the most 
reliable scenario to ensure that tritium production meets the demand 
because it mitigates both operational and production risks and 
increases the likelihood that tritium requirements will be met. Under 
the two reactor plan, potential variations in demand can be handled 
with relatively small changes in fresh fuel requirements. Tritium 
production will remain at the maximum level in both reactors until an 
adequate tritium inventory is attained, at which time the loading may 
be reduced slightly in each reactor. The updated Tritium Supplemental 
Environmental Impact Statement (SEIS) addressed the higher 
environmental releases from higher observed TPBAR permeation in 
nominally two reactors. The complete and approved results showed the 
environmental releases are safe and still well below drinking water 
standards. We expect the SEIS Federal Register notification to be as 
early as February, with publication to occur towards the end of 
February 2016.
    Mr. Wilson. Nuclear deterrence is important to our country. 
However, we have an obligation to deal with legacy Cold War radioactive 
waste that sits in waste tanks before we can start adding more waste 
into the mix. Without a well-reasoned waste disposal strategy, DOE can 
end up shutting down material making facilities because we will be 
exacerbating the waste problem. In my district at the Savannah River 
Site, radioactive liquid waste removal is a key gear that allows the 
Site to operate effectively. We need to accelerate removing this waste 
and not slow it down with budget cuts or reprogrammed money from the 
liquid waste program. What will you commit to do to increase removing 
harmful radioactive legacy waste from the Savannah River aging waste 
tanks?
    Secretary Sherwood-Randall. The Department has made considerable 
progress in completing the tank waste cleanup program at the Savannah 
River Site (SRS). To date, over 3,850 vitrified high level waste (HLW) 
canisters have been poured, over five million gallons of salt waste 
have been processed in its interim salt processing facilities, and six 
HLW tanks have been closed. In addition, two more tanks are in the 
process of being closed with completion planned for May 2016.
    However, the delay in the construction and startup of the Salt 
Waste Processing Facility has slowed the treatment of liquid tank 
waste, which has extended the schedule for completing the tank waste 
cleanup program, including tank closure. In spite of these challenges, 
the Department remains fully committed to making progress in the 
cleanup of the SRS tank waste.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. How important are verification and detection to 
detect cheating? A 2014 Defense Science Board report concluded that 
much work remains to be done on verification and detection technologies 
and interagency cooperation. Do you agree? What gaps remain?
    Secretary Work. The dependence on, and use of, verification 
measures in arms control agreements has been the hallmark of the United 
States' ability to monitor the compliance of other Parties and to 
detect violations of the terms of the agreements.
    More comprehensive verification measures lead to greater confidence 
in the United States' ability to verify that other Parties are abiding 
by the terms of treaties and agreements, which provides a strong 
deterrent against violations, and the warning required for us to 
counter violations if they occur.
    The Department of Defense reviewed the recommendations of the 
Defense Science Board's (DSB) 2014 Assessment of Nuclear Monitoring and 
Verification Technologies, and subsequently participated in several 
months of study and policy review in concert with other departments and 
agencies to address findings from the report. Work on this issue went 
beyond verifying treaty compliance; it explored interagency structure 
and processes to enable departments and agencies to more effectively 
detect and provide early warning of nuclear proliferation by State and 
non-state actors. We believe the work conducted in this regard will 
have an enduring positive effect on the ability to monitor treaty 
compliance and detect nuclear proliferation outside formal treaties and 
agreements.
    The Administration will be submitting a report to Congress later 
this year regarding efforts to address findings in the DSB Report.
    Mr. Langevin. How important are verification and detection to 
detect cheating? A 2014 Defense Science Board report concluded that 
much work remains to be done on verification and detection technologies 
and interagency cooperation. Do you agree? What gaps remain?
    Secretary Sherwood-Randall. Detecting material production and 
movement are essential to monitoring activities of interest and 
verifying compliance. In line with the recommendations of the January 
2014 Defense Science Board (DSB) Report, Assessment of Nuclear 
Monitoring and Verification Technologies, the Department of Energy's 
National Nuclear Security Administration (DOE/NNSA) continues the 
development of U.S. capabilities that address current and projected 
threats to national security posed by the proliferation of nuclear 
weapons and diversion of special nuclear material by investing in near- 
and long-term efforts in the labs, academia, and industry.
    In its August 2014 Report to Congress on the Progress on the 
National Research Agenda for Nuclear Nonproliferation & Arms Control 
Verification Technologies, DOE/NNSA describes the national research 
agenda to create technologies to detect state and non-state efforts to 
develop or acquire nuclear devices or weapons-usable nuclear materials. 
This Report addresses DOE/NNSA's progress and plans for such research 
and development and describes DOE/NNSA's general concurrence with the 
DSB report's key findings.
    Mr. Langevin. The 2016 Nuclear Security Summit will be the fourth 
Summit since the process began in 2010, and the second time that the 
United States has hosted. What is the point of the Nuclear Security 
Summit process and what has it accomplished?
    Secretary Sherwood-Randall. The Nuclear Security Summit process has 
successfully elevated the discussion of global nuclear security issues 
to the highest international leadership levels. At the three previous 
Summits, Heads of State and governments and senior leaders from more 
than 50 countries and organizations reinforced their shared commitment 
to strengthening international nuclear security norms and to taking 
tangible actions to reduce the threat of nuclear terrorism. The Summits 
have also encouraged nuclear experts, non-governmental organizations, 
and nuclear industry representatives to engage with each other on the 
important roles they each can play in improving and sustaining nuclear 
security. The Summits have recorded many tangible results that have 
enhanced global nuclear security. Since the first Nuclear Security 
Summit in April 2010, more than 2.5 metric tons of vulnerable highly 
enriched uranium (HEU) and plutonium material have been removed or 
disposed of; nine countries--Austria, Czech Republic, Hungary, Mexico, 
Serbia, Switzerland, Ukraine, Uzbekistan, and Vietnam--have become HEU-
free; physical security upgrades have been completed at 32 buildings 
storing weapons-usable fissile materials; and radiation detection 
equipment has been installed at more than 250 international border 
crossings, airports, and seaports to combat illicit trafficking in 
nuclear materials. Several countries have pledged to establish Centers 
of Excellence to provide international, regional, and domestic training 
on nuclear security, safeguards, and export control fundamentals and 
best practices. A number of countries have ratified the Amendment to 
the Convention on the Physical Protection of Nuclear Material (CPPNM/A) 
and the International Convention for the Suppression of Acts of Nuclear 
Terrorism (ICSANT), and the International Atomic Energy Agency (IAEA) 
hosted a Ministerial-level International Conference on Nuclear Security 
in July 2013.
    Through individual state actions and collective action, the 2016 
Summit will reaffirm and build upon the commitments of the previous 
Summits and will take steps to maintain the forward momentum for 
securing vulnerable nuclear materials worldwide. The 2016 Summit aims 
to produce a concise consensus Communique and five ``action plans'' 
that commit Summit participants to actions that will strengthen the 
nuclear security activities of key institutions and initiatives that 
support the international nuclear security architecture. These action 
plans will focus on the United Nations, IAEA, Global Initiative to 
Combat Nuclear Terrorism, G7 Global Partnership, and INTERPOL.
    Mr. Langevin. How important are verification and detection to 
detect cheating? A 2014 Defense Science Board report concluded that 
much work remains to be done on verification and detection technologies 
and interagency cooperation. Do you agree? What gaps remain?
    Admiral Winnefeld. Verification measures are a vital component of 
arms control agreements. More comprehensive verification measures lead 
to greater confidence in our ability to verify whether other Parties to 
the agreement are abiding with the agreed-upon terms, which in turn 
provides a strong deterrent against violations.
    The Department of Defense reviewed the recommendations of the 
Defense Science Board's 2014 Assessment of Nuclear Monitoring and 
Verification Technologies and subsequently participated in several 
months of study and policy review in concert with other departments and 
agencies to address findings from the report. Work on this issue went 
beyond verifying treaty compliance; it explored interagency structure 
and processes to better enable departments and agencies to detect and 
provide early warning of nuclear proliferation by state and non-state 
actors. We believe the work conducted in this regard will have an 
enduring positive effect on the ability to monitor treaty compliance 
and detect nuclear proliferation outside formal treaties.
    The administration will be submitting a report to Congress later 
this year regarding efforts to address findings in the DSB Report.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Please describe Russia's doctrine on using nuclear 
weapons to ``de-escalate'' a conflict. How does it impact the risks of 
a conflict in Europe escalating to a nuclear war? What is our policy to 
limit and deter the use of nuclear weapons in this context? Has this 
changed the risks and scenarios since the days of the Cold War?
    Secretary Work. Russia's 2014 military doctrine describes the 
potential use of limited nuclear strikes intended to de-escalate a 
conventional conflict on its periphery. In its new doctrine, Russia 
clearly describes The North Atlantic Treaty Organization (NATO) as the 
main military danger and reserves the right for ``first use'' of 
nuclear weapons in certain circumstances. This doctrine must be viewed 
in light of recent aggressive Russian actions, military exercises, 
investments in nuclear modernization, and irresponsible nuclear 
rhetoric by Russian officials.
    It would be a serious miscalculation for any potential nuclear-
armed adversary of the United States or its Allies and partners to see 
nuclear escalation as a viable option for achieving its objectives and, 
in particular, to believe that it could escalate its way out of failed 
conventional conflict. In addition to the U.S. commitment to the 
security of our Allies and partners, we have a core interest in 
deterring nuclear use and ensuring that no aggressor succeeds by 
crossing the nuclear threshold. The Department works to maintain a 
deterrent capability that is robust and stable. With your help, the 
Department will be able to provide the President with a range of 
effective options for imposing profound costs on any nuclear aggressor 
and denying the objectives that it may hope to achieve through the 
threat or use of nuclear weapons.
    Mr. Cooper. What are the current and projected challenges to 
strategic stability with Russia and what are your recommendations to 
best preserve strategic stability?
    Secretary Work. There are presently a number of challenges to 
strategic stability with Russia.
    Russia's nuclear saber-rattling is underwritten by its ongoing 
nuclear modernization program that covers most Russian strategic 
systems; evolving nuclear doctrine that appears to have lowered the 
Russian threshold for nuclear use by contemplating ``first use'' in 
conventional conflicts in certain circumstances; and a robust military 
exercise program that involves simulated limited nuclear strikes. This 
rhetoric and activity are unhelpful and potentially destabilizing and 
have no place in today's security environment. The United States and 
its North Atlantic Treaty Organization (NATO) Allies have no interest 
in a conflict with Russia, but the Alliance maintains a credible, 
effective nuclear deterrent. It would be a serious miscalculation for 
any nuclear-armed adversary of the United States or its Allies to see 
nuclear escalation as a viable option for achieving its objectives.
    Russian objections to U.S. and NATO missile defense is another 
challenge to strategic stability with Russia. U.S. and NATO missile 
defense efforts are in no way focused on Russia and pose no threat to 
Russia's strategic forces. U.S. and NATO missile defense efforts will 
continue to move forward under the European Phased Adaptive Approach as 
long as there is a ballistic missile threat emanating from the Middle 
East.
    Finally, Russia's continued violation of the Intermediate-range 
Nuclear Forces (INF) Treaty represents another acute challenge to 
strategic stability with Russia. The INF Treaty has helped to maintain 
security and stability in Europe for more than 20 years. The Department 
believes the Treaty provides as much security to Russia as it does to 
the United States and our NATO Allies. Although the Department will 
continue to make the case to Russia that it is in its own interest to 
return to compliance with the Treaty, the Department will ensure that 
Russia gains no significant military advantage through its violation of 
the Treaty.
    Mr. Cooper. On June 5th, the State Department released its arms 
control compliance report covering calendar year 2014. It found that 
Russia remains in violation of the Intermediate-range Nuclear Forces 
(INF) Treaty. What actions is the U.S. taking as a result of Russia's 
violation of this treaty? Does this violation have any impact on the 
U.S. nuclear deterrent capacity? Should we continue to press Russia to 
return to the treaty or would you suggest the U.S. withdrawing from the 
treaty?
    Secretary Work. The Administration is pursuing a three-pronged 
approach, including continued diplomatic efforts, economic 
countermeasures, and military countermeasures. The Department is 
considering a wide range of potential military response options.
    All the military options under consideration are designed to ensure 
that Russia gains no significant military advantage from its violation 
of the Intermediate-range Nuclear Forces (INF) Treaty. In terms of 
military responses, the Department is currently considering those 
options that are compliant with U.S. obligations under the INF Treaty. 
The United States will not take any action that is inconsistent with 
its obligations under the INF Treaty and international law, as long as 
such obligations remain in force. Even so, the INF Treaty is a two-way 
street. As Secretary Carter has said repeatedly, the Department will 
not allow the Russian Federation to gain a significant military 
advantage through its violation of an arms control treaty.
    Although Russia's violation of the INF Treaty is a serious 
challenge to the security of the United States, along with our Allies 
and partners, the U.S. nuclear deterrent capacity remains credible and 
effective. I continue to believe that the INF Treaty serves our 
interests, as well as those of our Allies, partners, and Russia. For 
that reason, I continue to urge Russia to return to compliance with its 
obligations under the INF Treaty.
    Mr. Cooper. What are the current and projected challenges to 
strategic stability with Russia and what are your recommendations to 
best preserve strategic stability?
    Admiral Winnefeld. There are presently a number of challenges to 
strategic stability with Russia.
    Evolving Russian nuclear doctrine appears to have lowered the 
Russian threshold for nuclear use by contemplating ``first use'' in 
conventional conflicts in certain circumstances. Moreover, a robust 
Russian military exercise program has emerged that involves simulated 
limited nuclear strikes. This rhetoric and activity is unhelpful and 
potentially destabilizing and has no place in today's security 
environment. The United States and its NATO Allies have no interest in 
a conflict with Russia, but the Alliance maintains a credible, 
effective nuclear deterrent. It would be a serious miscalculation for 
any nuclear-armed potential adversary of the United States or its 
Allies to see nuclear escalation as a viable option for achieving its 
objectives.
    Russian objections to U.S. and NATO missile defense, which is in no 
way focused on Russia and poses no threat to Russia's strategic forces, 
is another problematic area. We will continue to go forward with NATO 
missile defense under the European Phased Adaptive Approach (EPAA) as 
long as there is a ballistic missile threat emanating from the Middle 
East.
    Finally, Russia's continued violation of the intermediate-range 
Nuclear Forces (INF) Treaty represents another acute challenge to 
strategic stability with Russia. The INF Treaty has maintained security 
and stability in Europe for over 20 years. We believe the Treaty 
provides as much security to Russia as it does to the United States and 
our NATO Allies. While we will continue to make the case to Russia that 
it is in its own interest to return to compliance with the Treaty, we 
will ensure that Russia gains no significant military advantage through 
its violation of the Treaty.
    Mr. Cooper. On June 5th, the State Department released its arms 
control compliance report covering calendar year 2014. It found that 
Russia remains in violation of the Intermediate-range Nuclear Forces 
(INF) Treaty. What actions is the U.S. taking as a result of Russia's 
violation of this treaty? Does this violation have any impact on the 
U.S. nuclear deterrent capacity? Should we continue to press Russia to 
return to the treaty or would you suggest the U.S. withdrawing from the 
treaty?
    Admiral Winnefeld. The U.S. believes returning to compliance with 
the INF Treaty is in the best interest of the United States, Russia, 
and our allies. At the same time, we are conducting an assessment of a 
variety of options to ensure Russia does not gain significant military 
advantage from their violation of the Treaty. When this process is 
complete we look forward to working with Congress and our allies to 
discuss and implement these decisions. And while we view these new 
Russian intermediate-range systems with concern, we are also fully 
confident in the continued viability of U.S. and NATO deterrent 
capabilities
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. Deputy Secretary Work, please describe your views of 
Russia's recent and repeated nuclear threats towards its neighbors, 
NATO, and the United States. Given Russia's threats, its openly 
discussed doctrine to use nuclear weapons early in a conflict to ``de-
escalate'' and get the United States to back down, its use of ``hybrid 
warfare'' against neighbors and potentially against NATO member states-
what are the risks of a conflict in Europe and of such a conflict 
escalating to nuclear weapons?
    Secretary Work. Russia's use of hybrid warfare and Russia's 
evolving nuclear doctrine and attendant modernization program are both, 
in part, a response to much stronger U.S. and North Atlantic Treaty 
Organization (NATO) military capabilities. Russian rhetoric and 
destabilizing activities that are meant to showcase Russian resolve do 
not actually make Russia more secure. The United States and NATO have 
shown their own resolve to secure and defend the Alliance from 
potential threats.
    Aggressive Russian actions have already led to active conflict in 
Europe and increased the threat of further conflict. It would be a 
serious miscalculation for any potential adversary to assume the U.S. 
or our allies are vulnerable, or to think that it is possible to use 
nuclear weapons as a means to escalate out of a failed conventional 
conflict. Although we cannot reduce risk to zero, the United States and 
NATO can and do mitigate this risk through our own credible deterrent.
    Mr. Rogers. Deputy Secretary Work and Deputy Secretary Sherwood-
Randall, please describe the changes made to the U.S. nuclear deterrent 
and its supporting enterprise in both DOD and NNSA since the Cold War. 
How have our nuclear forces and capabilities changed, how has the NNSA 
enterprise changed, and how has our approach for sustaining the U.S. 
nuclear weapon stockpile changed since the Cold War?
    Secretary Work. The Administration is modernizing U.S. nuclear 
forces consistent with the President's commitment to retain a safe, 
secure, and effective deterrent for as long as nuclear weapons exist. 
The sustainment and modernization plans focus on modernizing the 
platforms, delivery systems, and weapons of our current nuclear forces 
to preserve military capabilities while adjusting our nuclear forces to 
the levels required by the New START central limits. The current 
nuclear triad continues to provide the flexibility and range of 
capabilities needed for effective deterrence at a reasonable cost, 
while hedging against potential technical problems or vulnerabilities. 
Additionally, it provides a range of options for this President and 
future Presidents in the event that deterrence fails. The plans also 
outline efforts to modernize nuclear command and control systems and 
extend the life of nuclear warheads through Life Extension Programs 
(LEPs) to ensure reliability and enhance surety. The National Nuclear 
Security Administration (NNSA) Stockpile Stewardship and Management 
Plan will prudently sustain the nuclear stockpile, including LEPs, 
while revitalizing the physical nuclear infrastructure and expert 
workforce required to sustain the nuclear stockpile, without returning 
to Cold War levels, capacities, and footprint. The long-term stockpile 
plan will leverage existing designs to maintain the weapons required 
for an effective nuclear force without underground testing. The plan 
addresses stockpile obsolescence and meets the policy objectives of 
sustaining deterrence through a smaller stockpile with fewer weapon 
types and a modernized, responsive nuclear infrastructure capable of 
addressing the potential for technological failure and geopolitical 
surprise.
    Mr. Rogers. Deputy Secretary Work, over the course of its six years 
in office, has the Administration examined in detail various options 
for the structure of U.S. nuclear forces, including a dyad or a monad? 
Subsequent to these reviews, why did President Obama ultimately decide 
to retain the triad, rather than eliminate one or more legs? What did 
these analyses show about the risks of moving away from the triad?
    Secretary Work. The Administration analyzed a variety of nuclear 
force structures prior to publication of the 2010 Nuclear Posture 
Review (NPR); as part of the NPR implementation study that informed 
Presidential strategic guidance; and prior to a determination on the 
central limits under the Strategic Arms Reduction Treaty (New START). 
The Administration concluded that a nuclear Triad composed of heavy 
bombers, intercontinental ballistic missiles, and submarine-launched 
ballistic missiles should be retained in order to maintain strategic 
stability while hedging against potential technical problems, 
vulnerabilities, or geopolitical uncertainties. The nuclear triad, and 
nuclear-capable fighter/bombers based in Europe, provides a responsive, 
flexible, and secure force. These attributes are reinforced across the 
triad, and eliminating one leg of the triad would necessarily degrade 
these qualities, reducing the flexibility and the credibility of our 
deterrent and our ability to hedge against technical or geopolitical 
risks.
    Mr. Rogers. Deputy Secretary Work, what developments in foreign 
nuclear weapon programs or actions of foreign nations concern you, and 
how does that factor into your planning and programs for the U.S. 
nuclear deterrent?
    Secretary Work. Russia is in the midst of a comprehensive nuclear 
modernization program that includes replacing Cold-War era land- and 
sea-based ballistic and cruise missiles of various ranges with new 
systems. Nuclear weapons remain the highest priority in Russia's 
military modernization plan through 2020 and constitute one of the 
largest portion of Russia's defense budget. Russia's nuclear 
modernization program is a cause of concern in the context of Russian 
behavior in Ukraine, the aggressive nature of recent Russian military 
exercises, and irresponsible rhetoric suggesting nuclear threats 
against the United States and its Allies and partners.
    China is enhancing its silo-based intercontinental ballistic 
missiles and continues to invest in building a more survivable nuclear 
force with the addition of mobile delivery systems, including a nascent 
sea-based nuclear deterrent capability. We have engaged China to urge 
that it exhibit greater transparency with respect to its nuclear 
arsenal and doctrine; however, this dialogue has not yet matured.
    North Korea's nuclear program is a serious concern given North 
Korea's belligerence and its efforts to develop long-range missiles and 
ballistic missile submarines. We are working closely with allies in the 
region to mitigate or counter this threat, including with missile 
defense capabilities.
    In light of these foreign nuclear weapon programs and developments, 
it is imperative that the United States visibly sustain an effective 
nuclear deterrent capability as the supreme guarantee of our own 
security, and that of our Allies and partners, for as long as nuclear 
weapons exist. The Department is working to maintain an effective 
nuclear deterrent that is robust and stable. The Department must ensure 
capabilities that provide the President with a range of effective 
options for imposing unacceptable costs on any aggressor that may hope 
to achieve its objectives through the threat or use of nuclear weapons. 
This will require strong and consistent congressional support for the 
nuclear modernization program.
    Mr. Rogers. Deputy Secretary Work, we have a lot of very old 
systems in our nuclear deterrent. How old is the B-52? How old it will 
the B-52 be when we plan to retire it? How old are B-2s and how old 
will they be when we retire them? As you manage risk from aging weapon 
systems, how important is it to remain on track with their 
replacements, like the long-range strike bomber? a. How old will OHIO-
class submarines be when they are retired? Is it unusual for submarines 
to be operational this long? What risks does this bring? b. How old is 
Minuteman III? How old will it be when it is retired around 2030? c. 
What is the average age of our nuclear warheads?
    Secretary Work. The average age of the B-52 fleet is approximately 
54 years. The newest B-52 bomber is 53 years old (delivered in 1961-
62). The average age of the B-2 fleet is approximately 21 years. Both 
bombers have undergone and continue to undergo sustainment and 
modernization efforts to keep them viable into the future. There is 
currently no set retirement date for either system, and we expect 
several more decades of operational use. The Minuteman III weapon 
system was first deployed in April 1970. The system has been and 
continues to be modified and its service life extended to ensure safe, 
secure, and reliable operations until replaced by the Ground Based 
Strategic Deterrent (GBSD). The system (rather than its component 
elements, some of which have been replaced or modernized) will be 66 
years-old when the GBSD completes its currently planned fielding in 
2036.
    The OHIO-class submarines were designed in 1970 and commissioned 
between 1984 and 1997. Their operational life has been extended from 30 
years to 42 years. Current OHIO-class submarines are reaching the end 
of their operational life and will begin to retire in 2027. This 
service life is unprecedented; the oldest submarine we have had in 
service to date retired after 36 years. There are risks and 
uncertainties associated with the operational sustainment of these 
platforms as they age beyond their planned lifetimes.
    The warheads in the present stockpile were designed and 
manufactured during the Cold War. The average age of the entire U.S. 
nuclear stockpile is approximately 28 years. Today's nuclear weapons 
have remained in service beyond their originally planned lifetimes.
    Managing risk is challenging; sustainment costs rise and the margin 
of uncertainty increases as our nuclear weapon systems and platforms 
age past their planned lifetimes. Delays in programs such as the long-
range strike bomber, the long-range stand-off cruise missile, the GBSD, 
and the OHIO-replacement submarine will further increase our risk in 
providing a credible and responsive nuclear deterrent to meet new and 
emerging adversary threats. It is very important that we remain on 
schedule with our plans to modernize these delivery platforms.
    Mr. Rogers. Deputy Secretary Work, you have led efforts to 
implement actions resulting from the Nuclear Enterprise Review. What 
are you doing to ensure these efforts continue after you depart the 
Pentagon? How is DOD institutionalizing the focus, attention, and 
improvements you have begun?
    Secretary Work. The Nuclear Enterprise Reviews (NERs) concluded 
that although our nuclear forces are currently meeting operational 
requirements, owing in part to the dedication of our service men and 
women, significant changes are required to ensure the safety, security, 
and effectiveness of the force in the future. I am holding senior 
leaders accountable for addressing issues identified in the NERs. The 
Department is working to implement an enduring system of continuous 
self-evaluation, honest reporting of problems up the chain-of-command, 
and detailed tracking of corrective actions designed to address root 
causes.
    The Nuclear Deterrent Enterprise Review Group (NDERG), which 
consists of the leaders responsible for training, funding, and 
implementing the nuclear mission, will continue reviewing the NER 
recommendations and the progress being made to improve the health of 
our nuclear enterprise. The Office of the Director of Cost Assessment 
and Program Evaluation (CAPE) will continue tracking and assessing 
implementation of the NER recommendations and will conduct analysis to 
determine if corrective actions are having the desired effect. The 
Military Departments and U.S. Strategic Command will continue 
performing the nuclear force readiness reviews focused on critical 
resources--including infrastructure, sustainment programs, and nuclear 
command, control, and communications--required to perform the mission.
    I am giving the enterprise care and attention commensurate with its 
high priority. I believe the system put in place to enable these 
efforts will continue after I leave the Department of Defense.
    Mr. Rogers. Deputy Secretary Work, you are currently developing a 
``third offset'' strategy for DOD. Can you tell me how you think land- 
or sea-based hypersonic weapons could complicate China's anti-access 
area-denial (so-called A2AD) strategy against the U.S.? In your 
opinion, is this technology being properly resourced by the Department?
    Secretary Work. Hypersonic weapons, along with other capabilities, 
can generate speed and range effects that can complicate China's anti-
access area-denial strategy against the United States. This technology 
is being properly resourced. Such technologies are being examined as 
part of the Third Offset Strategy, a Department-wide initiative to 
pursue innovative ways to sustain and advance our military superiority 
for the 21st century and to improve business operations throughout the 
Department.
    Mr. Rogers. Deputy Secretary Work and Admiral Winnefeld, our 
national security demands that our military be responsive and agile to 
new or emerging threats as they appear. This includes our ability to 
respond to technical surprise or unforeseen international developments. 
Creating a responsive nuclear weapons enterprise has been a centerpiece 
of the Administration's nuclear policy since its 2010 Nuclear Posture 
Review. a. How would you define this term, ``responsive 
infrastructure'' with respect to our nuclear enterprise? b. Do you 
believe we currently have a ``responsive infrastructure'' in NNSA's 
nuclear security enterprise? When will it be achieved? c. If given an 
urgent requirement to create a new nuclear weapon and delivery system, 
how quickly could our DOE and DOD nuclear enterprise respond and 
deliver an operational capability?
    Secretary Work. The 2010 Nuclear Posture Review states that, as 
long as nuclear weapons exist, the United States will maintain safe, 
secure, and effective nuclear forces, including deployed and stockpiled 
nuclear weapons, highly capable nuclear delivery systems and command 
and control capabilities, and the physical infrastructure with the 
expert personnel needed to sustain them. Today, the stockpile relies on 
a hedge of non-deployed warheads to ensure that we have a responsive 
deterrent.
    A responsive infrastructure can be defined as having the technical 
expertise and the underlying experimental and production infrastructure 
to: maintain the existing stockpile (e.g., surveillance of the 
stockpile and execution of life-extension programs and alterations); 
address problems uncovered in the stockpile (e.g., identify and 
diagnose the issue, then design, develop, implement, and certify the 
fix); and respond to geopolitical changes (e.g., design, develop, and 
produce a new nuclear warhead or more warheads of an existing type). In 
practice, a responsive infrastructure must sustain and extend the life 
of the current and anticipated stockpile and provide a ``surge'' 
production capacity for technical stockpile issues or geopolitical 
changes. The specific numerical production capacities that would 
constitute a responsive infrastructure are the result of the interplay 
over time between policy, military requirements, the effects of aging 
on the existing stockpile, and the cost of infrastructure.
    The United States does not yet have a fully responsive 
infrastructure and relies on a stockpile of hedge weapons to be 
responsive to world events or technology failures. The National Nuclear 
Security Administration (NNSA) is working hard to manage the technical 
expertise required for a responsive infrastructure. NNSA has also made 
significant progress in building and exercising experimental 
facilities, and it is on a multi-year path to achieving the needed 
production capabilities (e.g., for plutonium, uranium, and tritium 
production). An urgent requirement to create a new nuclear weapon and 
delivery system would be a significant challenge for both the 
Department of Energy and the Department of Defense nuclear enterprise. 
However, given sufficient fiscal resources and national priority, I am 
confident that our dedicated personnel would meet that challenge within 
the required timelines, if called upon to do so.
    Mr. Rogers. Deputy Secretary Work, when NATO published its 
Deterrence and Defense Posture Review (DDPR) in 2012, NATO explicitly 
saw Russia as a cooperative partner for peace in Europe and the wider 
world. Since 2012, Russia has illegally annexed Crimea, is actively 
sending troops and supporting rebels in other parts of Ukraine, has 
totally withdrawn from the Treaty on Conventional Forces in Europe, and 
is now openly declared in violation of the INF Treaty that undergirds 
security in Europe. Is NATO going to revisit the basic assumption of 
the DDPR that Russia is partner? When? Because Russia is actively 
calling NATO a threat. Is it time to rewrite the DDPR, which also 
called for NATO-Russia cooperation on missile defenses?
    Secretary Work. Russia's aggressive actions have fundamentally 
challenged the North Atlantic Treaty Organization's (NATO) vision of a 
Europe whole, free, and at peace. Although the NATO Alliance does not 
seek confrontation and poses no threat to Russia, the DDPR recognizes 
that NATO will continue to adjust its strategy in line with trends in 
the security environment. To this end, NATO has suspended all practical 
civilian and military cooperation with Russia, and has taken steps to 
deter Russia's malign and destabilizing influence, coercion, and 
aggression by, for example, doubling the number of its military 
exercises in just one year; setting up new command centers; 
reorganizing the NATO Response Force; and establishing the Very High 
Readiness Joint Task Force.
    Mr. Rogers. Deputy Secretary Work, last year Secretary Hagel 
provided a report assessing the requirements for plutonium pit 
manufacturing. This report reaffirmed the requirement for a pit 
production capacity of 50-80 pits per year, correct? This report is 
about a year old--has its conclusion that we need a capacity of 50-80 
pits per year changed? a. Should pit production capacity be tied solely 
to the needs of the life extension programs, or should the requirement 
for a responsive infrastructure also influence when we achieve a pit 
production capacity of 50-80 per year?
    Secretary Work. Then-Secretary Hagel's ``Assessment of Nuclear 
Weapon Pit Production Requirements'' report concluded that the United 
States requires a pit production capacity of 50-80 pits per year. That 
conclusion has not changed. The report explains that pit production 
capacity is tied to four factors: 1) policy objectives for the nuclear 
deterrent; 2) stockpile aging (including pit age and plutonium aging); 
3) military requirements; and 4) infrastructure and capacity costs. The 
requirement for a pit production capacity of 50-80 pits per year is not 
solely tied to the needs of life-extension programs, and having such 
capacity is part of a responsive infrastructure. The National Nuclear 
Security Administration plan is to achieve 30 plutonium pits per year 
by FY 2026 and 50-80 pits per year by 2030, as detailed in the FY 2016 
Stockpile Stewardship and Management Plan.
    Mr. Rogers. Deputy Secretary Work and Deputy Secretary Sherwood-
Randall, for the past several years, DOD has transferred between $1 to 
2 billion a year in top-line budget authority to NNSA to fund military 
priorities within NNSA. What is the long-term plan for this transfer--
will it continue indefinitely? Has this mechanism given DOD enhanced 
visibility into NNSA's programs? Is this the optimal structure to 
strengthen transparency and accountability?
    Secretary Work. Starting with Fiscal Year 2011, the Department has 
transferred to the Department of Energy/National Nuclear Security 
Administration (NNSA) $8.7 billion to facilitate the financing of 
critical nuclear enterprise costs, which the Nuclear Weapons Council 
(NWC) believed was critical to national security requirements. These 
activities include various projects and tasks, for which the Department 
of Defense is driving the overall requirement. These activities 
include:
    <bullet>  the modernization of infrastructure in support of 
scientific and weapon manufacturing activities;
    <bullet>  changes to the U.S. nuclear weapons stockpile as a result 
of implementing the Nuclear Posture Review (NPR);
    <bullet>  support of the Naval Reactors program, which includes the 
design of the Ohio Replacement Program (ORP) power plant, and;
    <bullet>  ongoing Life Extension Program (LEP) for the U.S. nuclear 
weapons stockpile.
    The Department has allocated in the Future Year Defense Program 
sufficient funding to continue these activities. The amount to be 
transferred to the NNSA is reviewed annually by the NWC, to ensure that 
these supplemental funds are targeted towards specific programs and 
projects, which require additional funding to accommodate weapon 
requirement changes, technical issues, and other programmatic matters.
    Through the NWC, both Departments have collaborated in prioritizing 
tasks to ensure that resources are applied in an effective and 
efficient manner, focusing on the overall nuclear weapons enterprise 
requirements and deficiencies. The collaboration between the two 
Departments, though the NWC, has improved transparency, and has greatly 
assisted in synchronizing the NNSA capabilities with military strategic 
requirements.
    These transfers will continue to be reviewed by the NWC as part of 
the Department's program budget review, prior to submission of the 
President's budget, and will persist until it is determined that they 
are no longer necessary.
    Mr. Rogers. Deputy Secretary Work and Deputy Secretary Sherwood-
Randall, how does DOE and DOD manage risk to the nuclear deterrent-
particularly as warheads, delivery systems, and command and control 
systems age and are replaced? In particular, how do you consider and 
manage the balance between sustaining nuclear weapons through life 
extension programs, and enhancing the scientific base through stockpile 
stewardship.
    Secretary Work. Risk to the nuclear deterrent is managed through 
the deployment of multiple delivery systems in the nuclear triad, 
deployment of more than one type of warhead on submarine launched and 
intercontinental missile platforms, an upload capability in the 
intercontinental and air legs of the Triad, and a reserve of hedge 
weapons. This allows the United States to manage risk to the nuclear 
deterrent by hedging both within and across legs of the triad. The 
Department of Defense (DOD) is responsible for managing the risk 
associated with aging and replacement of nuclear weapons delivery 
systems and command and control systems. The Department regularly 
exercises these systems to identify potential issues and executes 
repair, refurbishment, and replacement programs as needed. With the 
support of Congress, acquisition of replacement systems is timed to 
allow DOD to manage the risk associated with the transition between 
older and replacement systems.
    Similarly, DOD and the Department of Energy (DOE) jointly manage 
the risk associated with aging and replacement of nuclear warheads. 
Through the National Nuclear Security Administration (NNSA), DOE 
executes an ongoing surveillance program that includes both destructive 
and non-destructive testing. This surveillance program is designed to 
collect data that enables us to understand how nuclear weapons systems 
are aging, to recognize what the likely failure modes are, and to 
prioritize investments in modifications, alterations, and life-
extension programs.
    The balance between investing in sustainment of nuclear weapons and 
nurturing and enhancing the underlying scientific and engineering base 
is managed by DOE and the NNSA in coordination with DOD through the 
Nuclear Weapons Council (NWC). The NWC establishes a stockpile plan 
that includes schedules for specific life-extension programs and key 
infrastructure recapitalization projects. The NNSA plans and executes 
scientific campaigns and initiatives to support this plan and to 
maintain the strong scientific and engineering base necessary to 
achieve a responsive infrastructure.
    Mr. Rogers. How many LRSO missiles does DOD plan to procure? How 
many will be for tests/spares as opposed to for the active stockpile?
    Secretary Work. [No answer was available at the time of printing.]
    Mr. Rogers. Deputy Secretary Work and Deputy Secretary Sherwood-
Randall, please describe the changes made to the U.S. nuclear deterrent 
and its supporting enterprise in both DOD and NNSA since the Cold War. 
How have our nuclear forces and capabilities changed, how has the NNSA 
enterprise changed, and how has our approach for sustaining the U.S. 
nuclear weapon stockpile changed since the Cold War?
    Secretary Sherwood-Randall. The size and composition of the nuclear 
stockpile and infrastructure have evolved as a consequence of the 
global security environment and U.S. national security needs. As we 
have reduced the size of the nuclear stockpile we have also ensured 
that our nuclear deterrent remains safe, secure, and effective. As of 
September 2014, the active nuclear stockpile (which includes strategic, 
non-strategic, deployed and non-deployed weapons) consisted of 4,717 
weapons. When the New Strategic Arms Reduction Treaty (New START) is 
fully implemented, the number of operationally deployed, strategic 
nuclear weapons will be reduced to 1,550. In addition, no new nuclear 
weapons have been developed since the end of the Cold War, and the U.S. 
has not conducted underground nuclear explosive testing since 1992. Our 
confidence in the existing stockpile and the effectiveness of the 
deterrent has been sustained by the successes of the DOE-led Science-
Based Stockpile Stewardship Program. This program has provided new 
tools and in-depth understanding of the warheads, and it has supported 
and enabled the warhead life extension programs. However, continued 
success in stockpile stewardship cannot be assured without the 
requisite investment. As the 2010 Nuclear Posture Review noted, a 
modernized infrastructure will allow the U.S. to begin to shift away 
from retaining large numbers of non-deployed weapons as a technical 
hedge, allowing additional reductions in the stockpile of non-deployed 
weapons over time. It also noted the need for strengthening the 
science, technology, and engineering base. For these reasons, there is 
a clear requirement to modernize the stockpile through life extension 
programs and major alterations; to recapitalize the aging 
infrastructure that supports the nuclear enterprise; to assess the 
stockpile through a surveillance program focused on detecting aging 
issues; and to invest in the science and engineering programs that 
underpin the capability to certify that the U.S. nuclear deterrent 
remains safe, secure, and effective as long as nuclear weapons exist. 
For these vital actions, sustained funding will be required.
    Mr. Rogers. Deputy Secretary Sherwood-Randall, I understand that 
the National Nuclear Security Administration, which runs the nation's 
nuclear security complex, has a backlog of over $3.6 billion in 
deferred infrastructure maintenance and another $1.4 billion in 
deferred recapitalization of physical security equipment. This is a 
huge bill and deeply concerning. There are some alarming statistics and 
anecdotes associated with this including that 30% of our buildings in 
the nuclear weapons complex are more than 60 years old. Last year, a 
huge chunk of concrete fell from a ceiling into operational work areas 
at our key uranium production plant. a. What are the risks to safety 
and to NNSA's mission of continuing to operate in these facilities? b. 
What is DOE's plan for actually buying-down this very large backlog of 
deferred maintenance?
    Secretary Sherwood-Randall. Mr. Chairman, as you observe, much of 
the National Nuclear Security enterprise is well beyond its intended 
lifespan and is in less than adequate condition. In addition, more than 
10 percent of the facilities in the Nuclear Security Enterprise are now 
considered to be excess to National Nuclear Security Administration 
(NNSA) needs and are awaiting disposition. As a result, infrastructure 
failures are increasing in frequency, severity and unpredictability. 
These conditions have the potential to pose risks to our workers, the 
public, the environment, and to the execution of our vital mission. 
While we work proactively to identify and mitigate these risks through 
repair, replacement, and compensatory measures, we know that more needs 
to be done.
    Our plan to reduce deferred maintenance and arrest the declining 
state of infrastructure builds on the Energy Secretary's recent 
initiatives to improve the quality of data to support risk-informed 
investment decisions and stronger accountability for cost effective 
execution of infrastructure work. Regarding improved data, NNSA is 
replacing traditional analytical methods with new, innovative 
infrastructure management tools.
    One example is deployment of the BUILDER system to provide 
systematic assessments of the conditions at the building component 
level. Regarding cost effectiveness, NNSA is expanding its award-
winning Roof Asset Management Program to include other building systems 
that are common across the enterprise (e.g., heating, ventilation, and 
air conditioning). This strategic purchasing allows NNSA to acquire 
more equipment and to make repairs faster than if each site contracted 
separately.
    We will continue to identify opportunities to increase efficiencies 
and minimize costs. However, additional investments are also needed. 
Therefore, NNSA's Fiscal Year (FY) 2016 budget request for general 
purpose infrastructure Recapitalization and Line-Item Construction was 
76 percent higher than FY 2015 ($300.6M versus $170.8M).
    Mr. Rogers. Deputy Secretary Work and Deputy Secretary Sherwood-
Randall, for the past several years, DOD has transferred between $1 to 
2 billion a year in top-line budget authority to NNSA to fund military 
priorities within NNSA. What is the long-term plan for this transfer--
will it continue indefinitely? Has this mechanism given DOD enhanced 
visibility into NNSA's programs? Is this the optimal structure to 
strengthen transparency and accountability?
    Secretary Sherwood-Randall. NNSA receives all of its funding from 
direct appropriations from Congress. These appropriations are scored 
against the national security (budget function 050) cap that also 
applies to the Department of Defense (DOD) and several other national 
security agencies and programs. NNSA does not receive Congressional 
appropriations indirectly from monies appropriated to DOD. The practice 
of the so-called ``topline transfers'' is an administrative budget 
planning activity that began as part of the Administration's planning 
for implementation of the New START Agreement. The amount referred to 
as the ``topline transfer'' has been included within the DOD out-year 
budget projections and is not transferred to DOE by DOD. Instead, the 
Office of Management and Budget (OMB) allocates the funds in the budget 
year from DOD to DOE. Thus, the funds are requested from Congress by 
DOE in its budget request and appropriated directly to DOE/NNSA.
    Mr. Rogers. Deputy Secretary Work and Deputy Secretary Sherwood-
Randall, how does DOE and DOD manage risk to the nuclear deterrent-
particularly as warheads, delivery systems, and command and control 
systems age and are replaced? In particular, how do you consider and 
manage the balance between sustaining nuclear weapons through life 
extension programs, and enhancing the scientific base through stockpile 
stewardship.
    Secretary Sherwood-Randall. Modernization planning for the nuclear 
enterprise is a joint DOE/NNSA and DOD process that balances multiple 
goals, objectives, and constraints. Through this process we seek to 
prevent operational gaps in the Nation's nuclear deterrent while 
enhancing the safety, security, use control, and reliability of the 
stockpile. In the current constrained fiscal environment, balancing the 
many near-term needs of managing the stockpile drives difficult 
choices. These needs include: investment in the maturation of evolving 
technologies and manufacturing capabilities that support both the 
current stockpile and future life extension programs (e.g., additive 
manufacturing); sustainment and recapitalization of aging 
infrastructure; investment in research, development, test, and 
evaluation to address future stockpile challenges (e.g., certification 
readiness exercises); and maintaining a highly skilled workforce 
responsive to national security needs. The choices are informed by an 
enterprise risk management approach that is detailed in the FY 2016 
Stockpile Stewardship and Management Plan, which is our 25-year 
strategic program of record to maintain and extend the life of the 
nuclear stockpile and modernize the supporting infrastructure.
    Mr. Rogers. Deputy Secretary Sherwood-Randall, the B61-12 and W76-1 
life extension programs are both well underway, and the W88 alteration 
and the W80-4 cruise missile warhead are ramping up. Please give us a 
status update on these programs. Are you confident they will finish on 
time and on budget? What are the major risks to these programs 
executing successfully?
    Secretary Sherwood-Randall. The B61-12 life extension program (LEP) 
is in the fourth year of Development Engineering (Phase 6.3) and is on 
track to enter Production Engineering (Phase 6.4) in June 2016. The B61 
LEP is on schedule and recently completed two development flight tests 
that demonstrate the successful integration of the NNSA bomb assembly 
with the U.S. Air Force tail kit assembly. The W76-1 LEP is in the 
fourth year of full-scale production and is on track to complete 
production by FY 2019.
    The W88 ALT 370 is completing its third year of development 
engineering and has completed baseline design reviews on over half 
(eight of thirteen) of the components making up the program scope. In 
November 2014, the Nuclear Weapons Council approved the refresh of the 
conventional high explosive (CHE-R) within the W88 warhead. In February 
2015, NNSA formally included that scope in the W88 ALT 370 program. 
NNSA is accelerating the CHE-R to align and integrate development and 
qualification activities with the original ALT 370 scope. NNSA will 
generate a Baseline Cost Report to baseline the entire ALT 370 program, 
including CHE-R, in FY 2016 to support an NWC Phase 6.4 milestone in FY 
2017. The program is currently on schedule for a December 2019 first 
production unit (FPU). Funding challenges with the addition of the CHE-
R, require the program to coordinate with its DOD partners to examine 
the additional scope and cost increases to identify solutions to 
mitigate against any impacts to the current FPU. The W80-4 LEP entered 
Feasibility Study and Down Select (Phase 6.2) in July 2015, and is on 
schedule to meet a FPU date of 2025, which supports U.S. Air Force and 
Strategic Command requirements.
    The major risks to successful execution of any of these LEPs or 
major alterations are a combination of technical and funding risks. 
These include continuing resolutions, sequestration, and government 
shutdowns, all of which adversely affect the execution of weapons 
design and engineering, warhead production, and delivery schedules. In 
addition, other risks of primary concern to the W76-1 and B61-12 LEPs 
are single-point failures associated with aging infrastructure 
(facilities and production equipment) within the nuclear weapons 
complex. NNSA continues to reduce these risks by replacing aging 
infrastructure and by maintaining margin-to-delivery requirements. 
Funding requested for these two programs in the FY 2016 Future Years 
Nuclear Security Program continues their current progress.
    Mr. Rogers. Deputy Secretary Sherwood-Randall, DOE and NNSA face an 
array of longstanding problems with governance and management, as 
documented by many studies (including the recent advisory panel led by 
Norm Augustine and Rich Mies). What is DOE doing to address these 
problems? If many of the challenges are cultural, how is DOE leadership 
going to change the culture over the long-term?
    Secretary Sherwood-Randall. The Deputy Secretary and the NNSA 
Administrator are jointly responsible to the Secretary for managing 
governance and management reform activities in the Department to 
address recommendations from the Augustine-Mies advisory panel and 
other external reports. A description of these corrective actions and 
their status will be presented in the congressionally mandated NNSA 
Governance and Management Reform Implementation Plan by March 31, 2016.
    Mr. Rogers. Admiral Winnefeld, you recently spoke at a CSIS event 
about the cruise missile threat to the United States. Would you please 
share your thoughts on this? What is DOD doing to defend us, 
particularly the continental United States, against that threat--what 
should we actions should we expect to see taken or proposed in the 
near-term? a. Should we be focused on Russia's new air-launched and 
sea-launched cruise missiles that can target the United States 
homeland? b. Are you concerned with Russia's new Club-K cruise 
missile--which they are selling and hides inside a normal shipping 
container? Is this anything other than a Russian first strike weapon? 
What's our military strategy to counter this system? i. What are we to 
make of all of these Russian programs that seem to be aimed at creating 
first-strike capabilities against the United States?
    Admiral Winnefeld. The DOD is enhancing U.S. homeland defense 
capabilities by developing more effective cruise-missile defenses, 
while operating within the current fiscal environment of limited 
defense resources and competing priorities. As Russia continues its 
military modernization efforts, including working on longer-range, 
conventionally-armed cruise missiles such as the Kh-101, the DOD will 
continue to monitor and to address, as appropriate, these and other 
potential threats. The DOD is cognizant of Russia's potential to use 
these systems and capabilities to augment Russia's flexible-deterrence 
options, short of the nuclear threshold. Some U.S. means to counter 
these potential threats involve F-15 and F-16 fighter aircraft, while 
other means, such as the National Advanced Surface-to-Air Missile 
System (NASAMS), will utilize sensor-laden aerostat balloons as well as 
surface-based sensors. Still other counter-means could include new 
radar sensors for F-16s, and the Joint Land-Attack Cruise Missile 
Defense Elevated Netted Sensor (JLENS) aerostat to detect and to defeat 
Russian and other cruise-missile threats.
    Mr. Rogers. Admiral Winnefeld, General Dunford and General Selva 
both recently said they believe Russia should be at the top of the list 
for threats to the United States. Do you agree?
    Admiral Winnefeld. [No answer was available at the time of 
printing.]
    Mr. Rogers. Admiral Winnefeld, please describe your views of 
Russia's recent and repeated nuclear threats towards its neighbors, 
NATO, and the United States. Given Russia's threats, its openly 
discussed doctrine to use nuclear weapons early in a conflict to ``de-
escalate'' and get the United States to back down, its use of ``hybrid 
warfare'' against neighbors and potentially against NATO member states-
what are the risks of a conflict in Europe and of such a conflict 
escalating to nuclear weapons?
    Admiral Winnefeld. The Kremlin has consistently mischaracterized 
the U.S. and NATO as having belligerent designs against Russia. 
Regardless of Russian nuclear forces and doctrinal developments, the 
U.S. commitment to the defense of its allies remains a constant and 
enduring principle, as codified within NATO Treaty Article 5. Russia 
has no reason to doubt the seriousness of this commitment, and we have 
pointed out publicly that we will not be intimidated by an ``escalate 
to de-escalate'' doctrine. We are also, in conjunction with our NATO 
allies and U.S. European Command, updating our planning and posture to 
account for Russian use of hybrid warfare. It should be clear neither 
the U.S. nor our NATO allies maintain any aggressive intent against 
Russia, so there is no cause for alarm over defensive threats by 
Russia. However, Russia is also well aware NATO's capacity to defend 
itself against any source of military aggression remains indisputable. 
The strength of the NATO Alliance will continue to underpin European 
security and stability.
    Mr. Rogers. Admiral Winnefeld, should we retain the nuclear triad? 
Why?
    Admiral Winnefeld. Yes--indeed, maintaining a nuclear triad is 
consistent with current Presidential policy. The Triad offers enhanced 
flexible deterrence options for the President in time of crisis, while 
also providing assurance to our allies and partners. It also provides 
redundancy should, for some reason, the viability of one of the legs 
come into question.
    Mr. Rogers. Admiral Winnefeld, President Obama has announced he 
believes we can make a 1/3 reduction to the number of nuclear weapons 
the United States deploys. In your professional military judgment, 
should the United States carry out such a reduction unilaterally? Or 
should it be done bilaterally, through a treaty, with Russia?
    Admiral Winnefeld. In June 2013 in Berlin, President Obama stated 
U.S. willingness to negotiate a reduction of up to one-third of our 
deployed strategic warheads from the level established in the New Start 
Treaty. The United States has made clear we are prepared to engage 
Russia on a full range of issues affecting strategic stability, 
including prudent, mutual reductions in deployed nuclear weapons. 
However, stability is not necessarily enhanced by unilateral 
reductions, and we believe we should maintain the position that we will 
only reduce in concert with Russia and, if and when appropriate, China.
    Mr. Rogers. Admiral Winnefeld, would you please compare and 
contrast the U.S. stockpile of non-strategic nuclear weapons vs. that 
of Russia? In general, unclassified terms would you describe our 
respective stockpiles of non-strategic nuclear weapons as equal in size 
and capabilities? a. During a Strategic Forces subcommittee hearing in 
October of 2013, General Bob Kehler, then the commander of U.S. 
Strategic Command, responded to a question on whether he thinks B61 
nuclear bombs serve a military purpose in Europe. General Kehler said: 
``I do. Nuclear deterrence is a military mission, and we would offer . 
. . military options in extreme circumstances that would be available 
for the President. I believe all of that is a military mission.'' Do 
you agree with General Kehler's assessment?
    Admiral Winnefeld. Numerous assessments have concluded the Russian 
non-strategic nuclear weapons inventory is considerably larger than the 
U.S. non-strategic nuclear stockpile. We do believe, however, our non-
strategic force, while smaller than that of Russia, contributes to 
effective deterrence of Russian aggression. We agree with General 
Kehler that our non-strategic force provides valuable options to the 
President, both in Europe and the Pacific.
    Mr. Rogers. Admiral Winnefeld, what developments in foreign nuclear 
weapon programs or actions of foreign nations concern you, and how does 
that factor into your planning and programs for the U.S. nuclear 
deterrent?
    Admiral Winnefeld. The intelligence community has been actively 
following developments in foreign nuclear weapons programs. Most of the 
details are highly classified. Our concerns would regard development of 
deliverable weapons that could threaten the United States. Our second 
concern is regional competition (for example, between India and 
Pakistan) that could lead to strategic instability or proliferation. 
While on active duty, the information and analysis provided certainly 
factored into our perspective as we develop plans to modernize the U.S. 
nuclear deterrent over the next several decades. With the support of 
Congress, we are confident our plans today ensure our nuclear deterrent 
will remain viable and effective against the range of foreign threats 
we face today and anticipate in the future.
    Mr. Rogers. Admiral Winnefeld, in your professional military 
opinion, why does the United States need the long-range standoff (LRSO) 
weapon (the follow-on to the current air-launched cruise missile)? What 
is the short, elevator speech we can bring to our fellow Members on the 
floor and constituents back home--why is this capability important? a. 
Why do we need a nuclear-armed cruise missile if we'll have a 
penetrating bomber and the B61 nuclear gravity bomb? Are these 
capabilities duplicative or complementary?
    Admiral Winnefeld. The Long-Range Standoff (LRSO) nuclear-armed 
cruise missile will preserve the President's flexibility to sustain 
effective deterrence, as well as the credibility of strike options 
available to the President should deterrence fail. In short, when 
paired with a penetrating bomber, the LRSO will dramatically enhance 
the survivability of the bomber leg of the Triad, while the B61 should 
be retained for additional flexibility and for use in conjunction with 
our NATO allies on dual capable aircraft based in Europe. LRSO will 
replace the air-launched cruise missile (ALCM) as the Nation's only 
air-launched, long-range nuclear standoff capability. The ALCM's 
service lifetime has already been extended more than two decades beyond 
its planned 10-year service life, and the ALCM's reliability in the 
next decade is not assured, particularly as our potential adversaries 
improve their anti-access and area denial capabilities. Without LRSO, 
our only air-delivered response option after ALCM is retired would be 
B61 nuclear gravity bombs, which could put manned air crews at risk by 
forcing them to fly over their targets.
    That is not to say LRSO can fully substitute for the B61. Gravity 
bombs maximize the President's flexibility by providing a strike option 
that can be redirected or recalled up to the moment of weapon release 
above a target--an attribute LRSO will not have. More importantly, the 
B61 will sustain our ability to forward-deploy nuclear weapons with 
tactical aircraft. In this capacity, the B61 is an essential component 
of our commitment to extended deterrence and assurance, particularly in 
NATO. Similarly, LRSO and penetrating bombers are complementary rather 
than duplicative capabilities. Together, they significantly complicate 
our potential adversaries' defenses by multiplying the number of 
penetrating targets each bomber presents and by expanding the 
accessible space of targets that can be held at risk. In doing so, LRSO 
carried on a penetrating bomber ensures our credibility in challenging 
adversary defenses, not just as they exist today but as they evolve 
into the future.
    Mr. Rogers. Admiral Winnefeld, are you aware that China has 
recently claimed to have successfully completed its fourth successful 
test of a hypersonic weapon? a. How many successful tests has the U.S. 
conducted? b. How many different hypersonic programs does China have 
underway at present? How about Russia? How does the level of resources 
they are investing in this technology compare to us?
    Admiral Winnefeld. The Joint Staff can provide a response to this 
question in a classified forum.
    Mr. Rogers. Deputy Secretary Work and Admiral Winnefeld, our 
national security demands that our military be responsive and agile to 
new or emerging threats as they appear. This includes our ability to 
respond to technical surprise or unforeseen international developments. 
Creating a responsive nuclear weapons enterprise has been a centerpiece 
of the Administration's nuclear policy since its 2010 Nuclear Posture 
Review. a. How would you define this term, ``responsive 
infrastructure'' with respect to our nuclear enterprise? b. Do you 
believe we currently have a ``responsive infrastructure'' in NNSA's 
nuclear security enterprise? When will it be achieved? c. If given an 
urgent requirement to create a new nuclear weapon and delivery system, 
how quickly could our DOE and DOD nuclear enterprise respond and 
deliver an operational capability?
    Admiral Winnefeld. We believe a responsive infrastructure consists 
of the suite of nuclear warhead design and production capabilities 
required to execute current stockpile plans, and to respond, in a 
timely manner, to stockpile technical issues or geopolitical 
developments without interruption to sustainment and modernization 
activities. We do not believe the Nation has a fully responsive 
infrastructure at this time. However, NNSA is working hard to manage 
its current physical infrastructure, some of which dates back to the 
Manhattan Project, while it implements a long-term plan to sustain 
critical design and production capabilities, including the construction 
of new facilities to process plutonium and uranium. With sustained 
support from Congress and continued collaboration with DOD, we are 
optimistic NNSA can make significant progress towards a fully 
responsive infrastructure over the next 15 years.
    While this transition to a responsive infrastructure takes place, 
an urgent requirement to create a new nuclear weapon and delivery 
system would be a significant challenge for both the DOE and DOD 
nuclear enterprise. However, given sufficient fiscal resources and 
national priority, we are confident our dedicated personnel would meet 
that challenge within the required timelines if called upon.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The June 5th State Department made public in its arms 
control compliance report that it had evidence demonstrating that 
Russia has committed violations of the Intermediate-range Nuclear 
Forces (INF) Treaty. This coupled with military action against Ukraine 
and posturing against our European allies signals a larger surge in 
Russian aggression, which is deeply troubling. How is the United States 
responding to these treaty violations, and how does this impact our own 
obligations to a treaty, which is no longer being followed by one of 
the signatories? Does this adversely impact our ability to protect 
against Russian nuclear action?
    Secretary Work. The Administration is pursuing a three-pronged 
approach, including continuing diplomatic efforts, economic 
countermeasures, and military countermeasures. The Department is 
considering a wide range of potential military response options.
    All the military options under consideration are designed to ensure 
that Russia gains no significant military advantage from its violation 
of the Intermediate-Range Nuclear Forces (INF) Treaty. In terms of 
military responses, we are currently considering those options that are 
compliant with U.S. obligations under the INF Treaty and international 
law, and the United States will not take any action inconsistent with 
such obligations under the INF Treaty, as long as such obligations 
remain in force.
    Even so, the INF Treaty is a two-way street. As Secretary Carter 
has said repeatedly, we will not allow the Russian Federation to gain a 
significant military advantage through its violation of an arms control 
treaty. Although Russia's violation of the INF Treaty is a serious 
challenge to the security of the United States, along with our Allies 
and partners, the U.S. nuclear deterrent capacity remains credible and 
effective.
    Mr. Shuster. Given the increasingly bold action of the Russian 
military and the increasing tempo of threats being made, do you believe 
Russia is more likely now to utilize nuclear weapons than they have 
been in the past decade?
    Secretary Work. Recent Russian rhetoric and evolving Russian 
doctrine, as we understand it, are certainly cause for concern 
regarding Russian willingness to use nuclear weapons, even during the 
early stages of a conflict. In part owing to weakness in its 
conventional forces, Russia appears to have lowered its nuclear 
threshold. Current Russian doctrine, which must be viewed in light of 
recent rhetoric, conduct, and Russia's ongoing nuclear modernization, 
reserves the right for ``first use'' of nuclear weapons in certain 
circumstances, including the defeat of its conventional forces.
    Although Russian doctrine and rhetoric are certainly unhelpful and 
potentially destabilizing, neither the United States nor its NATO 
allies are without means to respond; our conventional and nuclear 
forces constitute a credible and powerful deterrent. It would be a 
serious miscalculation for any potential nuclear-armed adversary of the 
United States or its allies to see nuclear escalation as a viable 
option for achieving its objectives and, in particular, to believe it 
could escalate its way out of failed conventional conflict.
    Mr. Shuster. The June 5th State Department made public in its arms 
control compliance report that it had evidence demonstrating that 
Russia has committed violations of the Intermediate-range Nuclear 
Forces (INF) Treaty. This coupled with military action against Ukraine 
and posturing against our European allies signals a larger surge in 
Russian aggression, which is deeply troubling. How is the United States 
responding to these treaty violations, and how does this impact our own 
obligations to a treaty, which is no longer being followed by one of 
the signatories? Does this adversely impact our ability to protect 
against Russian nuclear action?
    Secretary Sherwood-Randall. Since 2013, the United States has on 
many occasions raised its serious concerns with Russia regarding its 
actions that the United States concluded were in violation of the INF 
Treaty. The United States has held senior-level and expert-level 
bilateral discussions with the goal of securing Russia's return to 
verifiable compliance with its Treaty obligations, and has engaged with 
allies on this matter throughout this process. Engaging primarily 
elements of the Departments of State, Defense, and Energy, the United 
States continues to consult with allies on potential diplomatic, 
economic, and military measures to protect U.S. and allied interests 
and ensure that Russia does not gain a significant military advantage 
as a result of its violation, while at the same time working to bring 
Russia back into compliance with the Treaty. The Department of Energy 
(DOE) refers you to the Department of State and the Department of 
Defense for further information on this topic.
    Mr. Shuster. Given the increasingly bold action of the Russian 
military and the increasing tempo of threats being made, do you believe 
Russia is more likely now to utilize nuclear weapons than they have 
been in the past decade?
    Secretary Sherwood-Randall. The role of the DOE remains consistent 
regardless of Russian behavior. We are responsible for ensuring that 
the United States' nuclear weapons stockpile is safe, secure, and 
effective to deter any adversary and assure U.S. allies and security 
partners that they can count on America's security commitments. After 
twenty years of the Stockpile Stewardship Program, the Department has 
ever-increasing confidence that we can sustain a safe, secure, and 
effective deterrent for the United States without testing.
    Mr. Shuster. The June 5th State Department made public in its arms 
control compliance report that it had evidence demonstrating that 
Russia has committed violations of the Intermediate-range Nuclear 
Forces (INF) Treaty. This coupled with military action against Ukraine 
and posturing against our European allies signals a larger surge in 
Russian aggression, which is deeply troubling. How is the United States 
responding to these treaty violations, and how does this impact our own 
obligations to a treaty, which is no longer being followed by one of 
the signatories? Does this adversely impact our ability to protect 
against Russian nuclear action?
    Admiral Winnefeld. We are very concerned about Russian violations 
of their arms control commitments, including the INF Treaty. We are 
pursuing an approach designed first to seek to bring Russia back into 
compliance with the Treaty, but at the same time are developing a range 
of military responses. All the options under consideration are designed 
to ensure that Russia gains no significant military advantage from 
their violation. Some of those options are compliant with the INF 
Treaty. Options that are not treaty compliant would not be implemented 
as long as the United States remains subject to the Treaty's 
provisions.
    No decisions have been made at this time, and military options will 
involve close coordination and discussion with allies moving forward. 
We will abide by our INF Treaty obligations so long as they are in 
force.
    Mr. Shuster. Given the increasingly bold action of the Russian 
military and the increasing tempo of threats being made, do you believe 
Russia is more likely now to utilize nuclear weapons than they have 
been in the past decade?
    Admiral Winnefeld. Recent Russian rhetoric and evolving Russian 
doctrine, as we understand it, are certainly cause for concern 
regarding Russian willingness to use nuclear weapons, even during the 
early stages of a conflict. In part owing to weakness in its 
conventional forces, Russia appears to have lowered its nuclear 
threshold. Current Russian doctrine, which must be viewed in light of 
recent rhetoric, supported by Russia's ongoing nuclear modernization, 
reserves the right for ``first use'' of nuclear weapons in certain 
circumstances, including to prevent impending defeat of its 
conventional forces.
    While Russian doctrine and rhetoric are certainly unhelpful and 
potentially destabilizing, neither the United States nor its NATO 
allies are defenseless; our conventional and nuclear forces constitute 
a credible and powerful deterrent. It would be a serious miscalculation 
for any potential nuclear-armed adversary of the United States or its 
Allies to see nuclear escalation as a viable option for achieving its 
objectives or to escalate its way out of failed conventional conflict.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. Secretary Work, how important is verification in nuclear 
arms control treaties? Do we have sufficient verification capabilities 
given the increasing threat of proliferation and recent treaty 
violations?
    Secretary Work. The dependence on, and use of, verification 
measures in arms control agreements has been the hallmark of the United 
States' ability to monitor the compliance of other Parties and to 
detect violations of the terms of the agreements.
    More comprehensive verification measures lead to greater confidence 
in the United States' ability to verify other Parties are abiding to 
the terms of treaties and agreements, which in turn provides a strong 
deterrent against violations, and the warning required for us to 
counter violations if they occur.
    For those nuclear arms control treaties currently being 
implemented, we believe we have sufficient monitoring capability to 
verify compliance. For example, the New START Treaty's verification 
measures provide the ability to discover violations and ensure that the 
other Party does not gain a significant military advantage from 
violations. This aids in deterring any violations as it minimizes any 
advantages that could be achieved. Russia seems to have underestimated 
our ability to monitor its compliance with the INF Treaty. Russia 
attempted to covertly build and test a nuclear-capable cruise missile 
system in violation of the INF Treaty, and the U.S. verification 
capability allowed us to detect that activity before Russia could gain 
any significant military advantage from it actions.
    Looking toward the future, the Department of Defense reviewed the 
recommendations of the Defense Science Board's 2014 Assessment of 
Nuclear Monitoring and Verification Technologies, and subsequently 
participated in several months of study and policy review in concert 
with other departments and agencies to address findings from the 
report. The work conducted in this regard will have an enduring 
positive effect on the ability to monitor treaty compliance and detect 
nuclear proliferation outside formal treaties and agreements.
    Mr. Walz. Admiral Winnefeld, the current administration indicated 
it would be willing to further reduce U.S deployed strategic nuclear 
weapons by up to one third, to near 1,000 warheads. The Joint Chiefs of 
Staff have indicated that it would support these reductions if they are 
bilateral and verifiable. Do such reductions therefore have to take 
place via a treaty? Do you believe we could pursue such reductions 
while Russia is in violation of the INF treaty and other arms-control 
obligations? At what point should the U.S require that further 
reductions in our nuclear arsenal address non-strategic nuclear weapons 
that Russia is in possession of thousands, while the U.S. has very few?
    Admiral Winnefeld. The current situation has significantly 
undermined trust in our relationship with the Russian Federation. 
Russia has rejected our proposals for negotiations regarding further 
reductions, which we believe should only be conducted bilaterally. We 
are very concerned about Russian violations of the INF Treaty and are 
pursuing an approach that seeks to bring Russia back into compliance 
with its obligations while maintaining or strengthening strategic 
stability and enhancing U.S. security. Reductions of Russian non-
strategic nuclear weapons will be problematic due to Russian dependence 
on those weapons and a lack of U.S. negotiating leverage.
    The Department of Defense continues to believe mutual compliance 
with nuclear arms control agreements can provide benefit and stability 
to the United States, its allies and partners, and the Russian 
Federation.

                                  [all]
                                  
                                  
           
</pre></body></html>
